            Department of Homeland Security

            ��������������������������


           New Media for Offices of Inspectors General: 

               A Discussion of Legal, Privacy and 

                  Information Security Issues 





This report was prepared on behalf of Council of the Inspectors General on Integrity and Efficiency




OIG-13-121                                                                              September 2013

                        OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                               Washington, DC 20528 I www.oig.dhs.gov



                                            September 16, 2013

                                             Preface

At the request of the Council of the Inspectors General on Integrity and Efficiency {CIGIE)
Homeland Security Roundtable {HSR) and with the approval of the CIGIE Executive Council, the
Department of Homeland Security {DHS) Office of Inspector General {OIG) chaired the New
Media Working Group {Working Group), consisting of public affairs specialists, attorneys,
information technology {IT) professionals, and other subject matter experts, to assess OIG use
of new media.

In September 2011, the Working Group produced Recommended Practices for Offices of
Inspectors General Use of New Media. The report discusses current and prospective uses of
new media tools in the OIG community and suggests practices that OIGs may use as they
consider implementing such tools. CIGIE endorsed the recommendations in the report,
including establishing a permanent standing working group on emerging technologies and their
impact on the OIG community, and issuing an educational guide on legal, privacy, and
information security new media issues.

This report implements one of the recommendations to CIGIE. It is a product of permanent
standing working group attorneys and information security specialists from 13 OIGs. We trust
that this report will guide OIGs as they use or consider using new media to further the OIG
mission . We express our appreciation to all who contributed to the preparation of this report.




                                              @rl.. {. ~:::. ~
                                             Charles K. Edwards
                                             Deputy Inspector General
                                     OFFICE OF INSPECTOR GENERAL

                                                Department of Homeland Security

                                                 Washington, DC 20528 / www.oig.dhs.gov


                                                       Table of Contents
Executive Summary ...............................................................................................................2


Background ...........................................................................................................................4


Legal and Privacy Consideration ............................................................................................4 


           Regulating Speech Under the First Amendment ......................................................4 

           Overview of the Public Forum Doctrine ....................................................................5 

           Official Government Speech .....................................................................................7 

           Regulating Public Platforms .......................................................................................8 

           Regulating Internal Platforms ....................................................................................10 

           Unofficial Employee Use of New Media ....................................................................11

           First Amendment Guidance in a Social Media Policy ...............................................12


           The Fourth Amendment and the Expectation of Privacy ..........................................14 

           Reducing or Eliminating Employees’ Privacy Expectations .......................................16 


           Information and Privacy ............................................................................................17 

           The Privacy Act of 1974..............................................................................................18

           The E-Government Act of 2002 and Privacy Impact Assessments.............................21 

           Adapted PIAs and Third-Party Websites or Apps ......................................................23 

           Web Measurement and Customization Technologies or “Cookies” ........................25 

           Freedom of Information Act.......................................................................................27


           Information Collection ...............................................................................................28 

           Paperwork Reduction Act...........................................................................................28

           Federal Advisory Committee Act................................................................................30 


           Records Management................................................................................................30 


           Human Resources .....................................................................................................33 

           Recruiting and Hiring .................................................................................................33

           Workplace Discrimination Claims .............................................................................35

           Harassment and Hostile Work Environment Claims..................................................35

           Retaliation Claims ......................................................................................................36

           Taking Adverse Action ...............................................................................................37 


           Ethics ..........................................................................................................................39 

           Ethics Overview..........................................................................................................39 

                                     OFFICE OF INSPECTOR GENERAL

                                                Department of Homeland Security

                                                 Washington, DC 20528 / www.oig.dhs.gov


           Overview of Impartiality and Endorsements .............................................................39

           Impartiality and Endorsements – Unofficial Employee Use .....................................40

           Impartiality and Endorsements – Official OIG Use ....................................................41

           Employee Use of Government Resources .................................................................42 

           Restrictions on Outside Activities .............................................................................43 

           Nondisclosure of Nonpublic Information ..................................................................43 

           Prohibition of Lobbying..............................................................................................43 

           Prohibition of Partisan Activities ...............................................................................44 

           Some Appropriations Restrictions .............................................................................45 


           Procurement and Terms of Service Agreements.......................................................46 

           No-Cost Agreements ..................................................................................................46 

           User Agreements and Terms of Service.....................................................................47 

                  Indemnification Clauses .................................................................................48 

                  Choice of Law/Choice of Forum Clauses........................................................49 

                  Confidentiality Clauses...................................................................................51

                  Advertising Clauses ........................................................................................51 


           Intellectual Property Issues .......................................................................................52 

           Government Seals ......................................................................................................52 

           Copyrights ..................................................................................................................53

           Liability for Copyright Infringement...........................................................................54

           Trademarks ................................................................................................................55 


           Public Accessibility ....................................................................................................56

           Section 508 of the Rehabilitation Act ........................................................................56 

           Accessibility for People with Limited English Proficiency ..........................................57


           Liability .......................................................................................................................58 


Information Security Considerations .....................................................................................59 


           Federal Information Security Management Act of 2002 ...........................................60 

           Cloud Computing .......................................................................................................61 

           Social Media ...............................................................................................................62 


           Engaging New Media Providers .................................................................................63 


           Protecting OIG Networks While Accessing New Media Platforms ............................63 


Conclusion ..............................................................................................................................64 

                     OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security

                                 Washington, DC 20528 / www.oig.dhs.gov


Appendixes
     Appendix A:   Objectives, Scope and Methodology ............................................ 65
     Appendix B:   Sample New Media FISMA Legal Analysis .................................... 66
     Appendix C:   FISMA, NIST, OMB, FedRAMP, and Privacy Considerations ......... 69
     Appendix D:   Negotiating, Contracting, and Communicating Information
                   Security Requirements.................................................................. 74
     Appendix E:   Protecting OIG Networks While Accessing New Media
                   Platforms ....................................................................................... 76
     Appendix F:   Major Contributors to This Report ............................................... 78

Abbreviations
     apps          applications
     CIGIE         Council of Inspectors General on Integrity and Efficiency
     CIO           Chief Information Officer
     DHS           Department of Homeland Security
     DLP           data loss prevention
     EO            Executive Order
     FACA          Federal Advisory Committee Act
     FAQ           frequently asked questions
     FAR           Federal Acquisition Regulation
     FedRAMP       Federal Risk and Authorization Management Program
     FIPS          Federal Information Processing Standards
     FISMA         Federal Information Security Management Act of 2002
     FOIA          Freedom of Information Act
     Fed. Reg.     Federal Register
     FTCA          Federal Tort Claims Act
     GAO           U.S. Government Accountability Office
     GSA           General Services Administration
     HR            human resources
     IG            Inspector General
     IP            Internet protocol
     IT            information technology
     LEP           Limited English Proficiency
     MSPB          Merit Systems Protection Board
     NARA          National Archives and Records Administration
     NIST          National Institute of Standards and Technology
     OGE           Office of Government Ethics
     OIG           Office of Inspector General
     OLC           Office of Legal Counsel
             OFFICE OF INSPECTOR GENERAL

                     Department of Homeland Security

                      Washington, DC 20528 / www.oig.dhs.gov


OMB         Office of Management and Budget
PCIE        President’s Council on Integrity and Efficiency
PIA         Privacy Impact Assessment
PII         personally identifiable information
PRA         Paperwork Reduction Act
SaaS        Software as a Service
SAOP        Senior Agency Office for Privacy
SORN        Systems of Record Notice
SP          Special Publication
Title VII   Title VII of the Civil Rights Act of 1964
TOS         terms of service
                       OFFICE OF INSPECTOR GENERAL

                              Department of Homeland Security

                               Washington, DC 20528 / www.oig.dhs.gov




The Council of the Inspectors General on Integrity and Efficiency (CIGIE) was statutorily
established as an independent entity within the executive branch by the Inspector General
Reform Act of 2008, Public Law 110-409. The mission of the CIGIE is to—

   •	 Address integrity, economy, and effectiveness issues that transcend individual 

      government agencies; and 


   •	 Increase the professionalism and effectiveness of personnel by developing policies,
      standards, and approaches to aid in the establishment of a well-trained and highly
      skilled workforce in the Federal Office of Inspector General (OIG) community.

Membership

   •	 All Inspectors General (IGs) whose offices are established under either section 2 or
      section 8G of the Inspector General Act, or pursuant to other statutory authority (e.g.,
      the Special IGs for Iraq Reconstruction, Afghanistan Reconstruction, and Troubled Asset
      Relief Program)

   •	 The IG of the Intelligence Community and the Central Intelligence Agency

   •	 The IGs of the Government Printing Office, the Library of Congress, the Capitol Police,
      the Government Accountability Office, and the Architect of the Capitol

   •	 The Controller of the Office of Federal Financial Management

   •	 A senior-level official of the Federal Bureau of Investigation, designated by the Director
      of the Federal Bureau of Investigation

   •	 The Director of the Office of Government Ethics

   •	 The Special Counsel of the Office of Special Counsel

   •	 The Deputy Director of the Office of Personnel Management

   •	 The Deputy Director for Management of the Office of Management and Budget (OMB)



                                                 1

                         OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security

                                 Washington, DC 20528 / www.oig.dhs.gov


CIGIE Homeland Security Roundtable


Since September 11, 2001, protecting our Nation has been a paramount concern of the entire
Federal establishment. The OIG community plays a significant role in reviewing the
performance of agency programs and operations that affect homeland security. To a large
extent, this has been accomplished through collaborative efforts among multiple OIGs.

On June 7, 2005, the President’s Council on Integrity and Efficiency (PCIE) Vice-Chair established
a PCIE Homeland Security Roundtable. The roundtable supports the OIG community by sharing
information, identifying best practices, and participating on an ad hoc basis with various
external organizations and government entities. The CIGIE New Media Working Group was
formed under the auspices of the Homeland Security Roundtable.

Executive Summary
The rapid expansion and growing popularity of new media, including interactive social media, is
creating both opportunities and challenges for Federal Inspectors General. This report,
produced by the Council of Inspectors General on Integrity and Efficiency (CIGIE) New Media
Working Group, is designed to give detailed guidance to Inspectors General and their staffs on
legal, privacy, and information security issues related to the use of social media.

This report follows up on the New Media Working Group’s initial effort published in September
2011. Recommended Practices for Offices of Inspectors General Use of New Media presented
Inspector General views on new media based on a survey sent to 79 CIGIE members, generally
analyzed issues involving OIGs and emerging technologies, and made six recommendations to
OIGs and one recommendation to CIGIE.

This report focuses on two Office of Inspector General (OIG) uses of new media: official use,
such as for public affairs outreach and human resources purposes, and unofficial use by
employees. It does not cover OIG uses of new media in the law enforcement, national security,
or intelligence contexts, and its guidance may not apply equally in those contexts. The report
provides guidance on a range of legal and policy issues, including constitutional considerations,
information and privacy, accessibility, ethics, terms of service, intellectual property, information
collection, liability, and records management. It also offers insights into the information
security challenges inherent in installing, hosting, monitoring, and managing official new media
ventures. Although the Working Group has strived to draft a reader-friendly report, written for
lay people as well as specialists, the issues that this report presents cover a wide variety of
apparently disparate topics and concerns. The variety of topics reflects the breadth of
experience and knowledge that OIGs must employ to address new media issues.




                                                   2

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


Our research and analysis is intended to help not only the larger offices that may already have a
new media program or are starting one, but also the smaller offices with fewer resources.
Regardless of whether an OIG already uses, is planning to use, or is not intending to use social
media, policies and safeguards should be developed since many, if not most, employees are
already individually engaged in this new cyber community.

This report should not be used as a substitute for independent legal advice.1 This is a fluid area,
and laws and policies may change at a rapid pace.

This report makes no recommendations.




1
  The CIGIE New Media Working Group members and sponsors expressly disclaim liability for errors and omissions in the
contents of this report. No warranty of any kind, implied, expressed, or statutory, is given with respect to the contents. The
information appearing in this report is for general informational purposes only and is not intended to provide legal, privacy, or
information security-related advice to any individual or entity. We urge you to consult with your own legal, privacy, or
information security advisor before taking any action based on information appearing in this report.

                                                                3

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


Background
As discussed in the 2011 Council of Inspectors General on Integrity and Efficiency (CIGIE) report,
new media encompasses all forms of electronic, digitized, and interactive media, including tools
that allow users to share content through text, images, audio, and/or video. New media
applications (apps) may be hosted internally or obtained through cloud services. New media
tools such as SharePoint and the Office of Management and Budget (OMB) MAX platform
facilitate knowledge management, collaboration, and internal communication within the
Federal Government, whether intra-agency or government-wide.

This report covers such tools to an extent but focuses to a great degree on social media, a
subset of new media that allows for public interaction, collaboration, and participation. Types
of social media include collaborative projects (e.g., Wikipedia, wikis), blogs and microblogs
(e.g., Twitter), media sharing websites (e.g., YouTube, Flickr), social or professional networking
websites (e.g., Facebook, MySpace, LinkedIn, Google+), and virtual social worlds (e.g., Second
Life).

The legal, privacy, and information security framework will vary depending on where the new
media is hosted, such as whether it is hosted internally by an OIG, or externally, such as
Software as a Service (SaaS) or third-party websites and apps. In addition, the analysis may
change depending on whether the new media is used to share internally or externally, and
whether the external information sharing is unidirectional, coming solely from an OIG, or allows
input and sharing from the public.

Legal and Privacy Considerations
         Regulating Speech Under the First Amendment

         Like other employers, OIGs have an interest in monitoring employee performance and
         conduct, and not just while employees are at work. Increasingly, employees’
         professional lives and personal lives are merged, with employees broadcasting via social
         media networks their views about their work, coworkers, and supervisors. Employers,
         including government employers, may not always like what employees have to say. Yet
         while private sector employers may extend their workplace policies to the online and
         virtual world without considering First Amendment implications, a government
         employer must balance the need to regulate speech with employees’ First Amendment
         rights. 2 In the new media environment, these obligations constitute a highly nuanced
         and ever-changing area of law.

2
 The First Amendment states that “Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances.” U.S. CONST. amend. I.

                                                               4

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov



          In addition to balancing employee rights with employer needs, OIG decision makers
          need to consider the First Amendment when regulating speech on official new media
          websites: specifically, whether allowing or disallowing public commentary on an OIG-
          sponsored new media website will affect any First Amendment analysis. Intentionally
          allowing the public to participate and comment on an official social media website raises
          First Amendment issues if the OIG wants to edit or restrict any of the commentary. It is
          wise to consider the purpose of the social media website, or “public forum,” ahead of
          time since an OIG’s intent and purpose for a social media website will largely determine
          the standard the courts use to evaluate whether an OIG appropriately and legally
          regulates comments.

          The following discussion of First Amendment implications in relation to new media
          includes an overview of the public forum doctrine; official government usage or the
          “government speech” doctrine; regulating public and internal platforms; unofficial, non­
          work-related employee use of new media; and First Amendment guidance in a social
          media policy.

          Overview of the Public Forum Doctrine

          The Supreme Court employs “forum analysis” to determine when the government may
          limit or exclude expressive activity in public property or places where people assemble
          or debate. 3 Traditionally, the Supreme Court evaluated speech restrictions on the
          government’s physical or “tangible” property, such as an amphitheater, but the Court
          expanded the analysis to include non-traditional “property,” such as a university
          meeting facility or school board meeting. 4 Although applying forum analysis to such a
          “metaphysical” or virtual world as new media is relatively new, it can be done.5




3
  Christian Legal Soc'y Chapter of the Univ. of Cal., Hastings Coll. of the Law v. Martinez, 130 S. Ct. 2971, 2984 (2010).
4
  See Perry Educ. Ass'n v. Perry Local Educators’ Ass’n, 460 U.S. 37, 45 (1983) (citing Widmar v. Vincent, 454 U.S. 263 (1981)
(university meeting facilities); City of Madison Joint School District v. Wisconsin Employment Relations Comm'n, 429 U.S. 167
(1976) (school board meeting); Southeastern Promotions, Ltd. v. Conrad, 420 U.S. 546 (1975) (municipal theater)).
5
  OIGs may not own the digital spaces in which they use new media but can still create public forums in those areas. A forum
does not even need to exist spatially or geographically; it may be metaphysical. See Christian Legal Soc'y, 130 S. Ct. at 2979
(public forum precedents supply the appropriate framework for the speech and association rights claims regarding student-
group funding and school email lists at a public law school); Rosenberger v. Rector and Visitors of Univ. of Va., 515 U.S. 819, 827
(1995) (funding for student activity publications constitutes a public forum). Cf. David S. Ardia, Government Speech and Online
Forums: First Amendment Limitations on Moderating Public Discourse on Government Websites, 2010 BYU L. REV. 1981, 1993
(2010) (“It remains an open question whether these virtual spaces will inherit the same protections for speech that we take for
granted in the physical world.”).

                                                                5

                                 OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          Generally, under the “public forum doctrine,” government official use of new media
          may fit into one of three forum categories6: “designated” public forum, “limited” public
          forum (which may be considered a subcategory of a designated public forum), or
          “nonpublic” forum. The lines between these categories are not always clear.7

          Courts have found that the government creates a designated public forum when
          government property that has not traditionally been regarded as a public forum is
          “intentionally opened up for that purpose.”8 Examples include a public university
          auditorium or municipal theater.9 New media platforms likely constitute designated
          public forums when they are interactive and allow the public to express themselves,
          particularly if it is the agency policy or practice to create such a forum.10 Having such a
          policy or practice indicates intent to designate areas “for expressive activity by
          citizens.” 11 The Supreme Court has made intent the key determinant of whether a
          forum is public or nonpublic.12 When the government regulates speech in designated
          public forums, courts will evaluate the government’s regulations under “strict scrutiny,”
          meaning that the “restriction must be narrowly tailored to serve a compelling
          government interest,” and restrictions based on viewpoint are prohibited. 13

          A limited public forum is a subset of a designated public forum, where the government
          may limit access to certain groups or topics, as long as the restrictions are reasonable
          and viewpoint-neutral. 14 When the government excludes a speaker based on the
          subject matter of his speech, the exclusion need only be reasonable and viewpoint­
          neutral. 15 When the government excludes a speaker who falls within the class to which
          a designated public forum is made generally available, however, or excludes a speaker
6
  A fourth “traditional public forum” category includes areas such as streets or parks that “have immemorially been held in trust
for the use of the public.” Perry, 460 U.S. at 45 (quoting Hague v. Comm. for Indus. Org., 307 U.S. 496, 515 (1939)). Since the
government has not held new media sites open historically or immemorially for public speech, it is unlikely that a court would
find that the government created a traditional public forum with external new media tools, so we will not further analyze this
category. See Ardia, supra note 5, at 1998 (“Given the Internet’s short history, there is little chance that a website, or indeed
anything on the Internet, would be considered a traditional public forum”).
7
  Lyrissa Lidsky, Government Sponsored Social Media and the Public Forum Doctrine Under the First Amendment: Perils and
Pitfalls, 19 THE PUB. LAWYER 2 (Summer 2011).
8
  Pleasant Grove City, Utah v. Summum, 555 U.S. 460, 469 (2009). To determine whether the government intended to create a
limited public forum, courts look to the government’s “stated purpose” and “objective indicia of intent,” such as “the consistent
policy and practice of the government.” Bryant v. Gates, 532 F.3d 888, 896 (D.C. Cir. 2008) (emphasis in original) (quoting
Stewart v. Dist. of Columbia Armory Bd., 863 F.2d 1013, 1016-17 (D.C. Cir. 1988)).
9
  Perry, 460 U.S. at 45.
10
   Id. at 47.
11
   Lyrissa Lidsky, Public Forum 2.0, 91 B.U. L. REV. 1975, 1998 (2011); see also Ardia, supra note 5, at 1998-99 (“In the end, it is
likely that a government website that allows private speech will be viewed under the public forum doctrine as a limited public
forum – that is, ‘public property which the state has opened for use by the public as a place for expressive activity.’”) (quoting
Perry, 460 U.S. at 45)).
12
   E.g., Cornelius v. NAACP Legal Def. & Educ. Fund, 473 U.S. 788, 802-03 (1985).
13
   Summum, 555 U.S. at 461.
14
   Perry, 460 U.S. at 46; Christian Legal Soc'y Chapter of the Univ. of Cal., Hastings Coll. of the Law v. Martinez, 130 S. Ct. 2971,
2984 (2010).
15
   Summum, 555 U.S. at 470.

                                                                 6

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov


         whose speech obviously falls within the subject matter constraints of the forum, the
         government’s action is not judged by whether it is reasonable and viewpoint-neutral but
         is subject to strict scrutiny. 16 In other words, if an OIG opened a forum for congressional
         staffers to discuss open OIG recommendations, excluding a staffer discussing that topic
         must be judged under strict scrutiny, but excluding him because he is not discussing
         open OIG recommendations needs only to be reasonable and viewpoint-neutral.

         Finally, a nonpublic forum is “[p]ublic property that is not by tradition or designation a
         forum for public communication.” 17 Government internal use, such as SharePoint or an
         internal wiki or blog, would fall under this category. The government may make “time,
         place, and manner” restrictions on speech in this forum, and may regulate to “reserve
         the forum for its intended purposes, communicative or otherwise, as long as the
         regulation on speech is reasonable and not an effort to suppress expression merely
         because public officials oppose the speaker's view.” 18 Courts examine only the
         reasonableness of government regulations because the government has not
         “dedicated” this property to speech activity. 19

         Official Government Speech

         Public forum analysis does not apply to the government speech doctrine because, as the
         name implies, this is when the government speaks for itself.20 First Amendment free
         speech protections do not apply when the government expresses its own views. 21 For
         example, tweets from an official government account are not subject to First
         Amendment protections because the government is tweeting its own message. When
         an OIG uses a social media website solely to share information about its programs and
         related issues but allows no public commentary or participation, the government speech
         doctrine would apply.22

         This option is the easiest to manage in that it raises no First Amendment issues, yet it
         may not allow an OIG to take full advantage of social media. Most people would argue
         that allowing public participation is the point of social media; it is not meant to be a
         one-way street. Decision makers should consider their goals before setting up a social
         media account, and if they see no benefit of engaging the public, then settling for this
         option should be fine. Whatever an OIG decides, it is important to avoid using the


16
   Ark. Educ. Television Comm’n v. Forbes, 523 U.S. 666, 677 (1998); see also Cornelius, 473 U.S. at 802.
17
   Perry, 460 U.S. at 46.
18
   Id.
19
   Id.
20
   Summum, 555 U.S. at 464.
21
    Id. at 467-68.
22
   Lidsky, supra note 11, at 1996 (“A non-interactive Facebook page controlled by a government actor would doubtless be
treated as government speech. . . .”).

                                                             7

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         government speech doctrine as a pretext for regulating private speech on government
         property, such as a public forum. 23 See Table 1, First Amendment Categories.

                                      Table 1: First Amendment Categories
       Type                            Example                          Regulation Standard
 Designated           •   Interactive new media that allows             •   Strict scrutiny
 Public Forum             public comments                               •   Restrictions based on viewpoint prohibited
                     •    Determining factor is intent
 Limited Public      •    New media that may allow public               •   Restrictions must be reasonable and
 Forum                    interaction but restricts access to               viewpoint-neutral
                          certain groups, topics, or individuals        •   If government excludes speaker whose
                                                                            speech falls within subject matter constraints
                                                                            of forum, however, subject to strict scrutiny
 Nonpublic           •    Internal new media, such as                   •   Time, manner, place restrictions acceptable
 Forum                    SharePoint or an internal wiki or blog        •   Must be reasonable
                                                                        •   Can reserve forum for intended purposes
 Government           •    Official OIG social media that pushes        •   The First Amendment does not apply
 Speech                    out message unidirectionally
                      •    No public participation

         Regulating Public Platforms

         At times it may be unclear whether an OIG is speaking for itself or has created a public
         forum. In most cases involving new media there will be a mixture of government and
         private speech. 24 For example, when an OIG engages the public through its blog or
         Facebook page, it likely creates a limited public forum in the comments section of each
         “post.” 25 In those cases, the OIG should regulate public speech according to the limited
         or designated public forum context, as appropriate.

         Under the public forum doctrine, OIGs may not discriminate against speech solely
         because of the viewpoint expressed. Only when the regulation is reasonable and
         necessary to preserve the purpose of the forum may an OIG regulate who may speak in
         new media limited public forums and what is said in those forums. For example, when
         an OIG blogs about its most recent audit report, it may delete comments to the post
         that are off-topic or entirely unrelated to the audit or OIG programs, but it would be
         improper to delete comments that express displeasure with the results or opinions of an
         OIG audit. Additionally, OIGs may remove comments that advertise nongovernmental
         products, services, or organizations because such speech may be an improper


23
   See Summum, 555 U.S. at 473 (acknowledging the “legitimate concern that the government speech doctrine not be used as a 

subterfuge for favoring certain private speakers over others based on viewpoint”).

24
   Lidsky, supra note 11, at 1997-98. 

25
   Id. at 1999 (“There is little doubt that [interactive social media] sites are forums, at least with regard to the comments 

portion of the site.”).


                                                              8

                                 OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          endorsement under Federal ethics rules.26 Finally, OIGs will want to remove any
          information resulting from public participation that may identify a specific person, such
          as a Social Security number, photograph, or date of birth. Participants need to be
          advised that they should not post such information.

          OIGs also may encounter issues with indecent or vulgar commentary on external new
          media websites. OIG account managers may restrict or remove “unprotected speech”27
          from new media websites so long as they do not narrowly apply the unprotected speech
          rules to discriminate against certain views. 28 Unprotected speech includes fighting
          words, 29 words that imminently incite illegal behavior, 30 threats,31 and obscenities or
          obscene material. 32

          Additionally, speech on new media websites that does not rise to the level of
          unprotected speech under the First Amendment may still disrupt the purpose of the
          forum and thus may call for removal. Several courts have upheld restrictions on speech
          in public meetings to maintain decorum and limit discussion to the purpose of the
          forum, as long as they do not discriminate based on a speaker's viewpoint. 33
          Accordingly, an OIG may adopt a policy prohibiting personal attacks or disruptive
          speech, as long as the policy is content-neutral and is intended to maintain decorum in
          the forum.34

          However, it is important to recognize that unlike in-person meetings, new media users
          can more easily disregard personal attacks or repetitive, off-topic comments by
          skimming through comments or ignoring comments altogether. Given how easy it is to
          ignore speech on new media platforms, OIGs should consider whether removing certain


26
   See infra Ethics section.
27
   The Supreme Court has stated that certain types of speech are not entitled to protection because they are “of such slight
social value . . . that any benefit that may be derived from them is clearly outweighed by the social interest in order and
morality.” Chaplinsky v. New Hampshire, 315 U.S. 568, 572 (1942).
28
   See R.A.V. v. City of St. Paul, Minn., 505 U.S. 377, 388 (1992) (providing the example that a state might “choose to prohibit
only that obscenity which is the most patently offensive in its prurience” but may not prohibit only obscenity that includes
offensive political messages.).
29
   Id. at 383; Chaplinsky v. New Hampshire, 315 U.S. 568, 572 (1942) (“[T]he lewd and obscene, the profane, the libelous, and
the insulting or ‘fighting’ words’—those which by their very utterance inflict injury or tend to incite an immediate breach of the
peace”—do not enjoy constitutional protection).
30
   Brandenburg v. Ohio, 395 U.S. 444, 447 (1969).
31
   Watts v. United States, 394 U.S. 705, 707 (1969).
32
   Miller v. California, 413 U.S. 15, 24 (1973) (indicating that obscene material as that which appeals only to prurient, or sexually
arousing, interests; depicts “patently offensive” sexual conduct; and lacks any “serious literary, artistic, political, or scientific
value”).
33
   E.g., Steinburg v. Chesterfield Cnty. Planning Comm'n, 527 F.3d 377, 385 (4th Cir. 2008) (a planning commission meeting was
a limited public forum, and the city could limit its discussion and restrict speakers reasonably to preserve decorum necessary to
accomplish the purpose of the meeting).
34
   Steinburg, 527 F.3d at 387 (“A content-neutral policy against personal attacks is not facially unconstitutional insofar as it is
adopted and employed to serve the legitimate public interest in a limited forum of decorum and order”).

                                                                 9

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         borderline off-color comments, for the purpose of upholding decorum and reasonably
         preserving the purpose of the forum, is worth the risk of chilling free expression. 35
         While remaining mindful of obligations regarding privacy, OIGs should consider
         disallowing anonymous speech. Requiring users to register before posting comments
         might encourage appropriate use of the forum and, as long as the information is
         accessible to users who do not wish to register with a third-party provider, is
         advisable.36 However, OIGs should not require users to provide their personal
         information to a third-party provider to access government content. Not only could this
         raise privacy issues, but also it may create the appearance of providing preferential
         treatment to an enterprise. 37

         Regulating Internal Platforms

         An OIG may create a new media platform solely for internal purposes, such as to allow
         employees to communicate with each other or share a digitized collaboration space.
         Unless the public is allowed to access the website and participate, the forum would be a
         nonpublic forum. An OIG may restrict internal new media access to a specific subset of
         employees in a nonpublic forum. For example, an OIG may grant access on a case-by­
         case basis, as in a SharePoint website for auditors or when a need-to-know basis exists.
         An OIG could even open an internal website to selected nongovernmental groups,
         potentially creating a limited public forum. The “constitutional right of access” would
         extend only to other entities of the same character, however; the Supreme Court has
         held that “selective access,” or allowing only certain similar groups to join a forum, does
         not transform a limited or designated public forum into a public forum. 38

         OIGs have much more freedom to regulate speech in nonpublic, internal forums, as
         these forums are only subject to the reasonableness and viewpoint-neutral limitations.
         These limitations would not be violated if, for example, OIGs were to delete off-topic
         posts in SharePoint discussions or deny certain employees access to forums because of
         a lack of need-to-know. Despite employee requests for anonymity, OIGs may require
         employees to identify themselves before posting to internal new media platforms to
         ensure accountability.




35
   See Lidsky, supra note 11, at 2002, for arguments as to why “allowing the government to preserve decorum in public

meetings do not apply as strongly in the social media context.”

36
   See infra Information and Privacy, and Public Accessibility sections for more information. 

37
   48 C.F.R. § 301-1 requires government business to be conducted “with complete impartiality and with preferential treatment 

for none.” See also infra Information and Privacy section regarding third-party privacy policy issues. 

38
   Perry Educ. Ass'n v. Perry Local Educators’ Ass’n, 460 U.S. 37, 47 (1983). 


                                                             10

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         Unofficial Employee Use of New Media

         Regarding unofficial employee use of new media, Federal employees do not forfeit their
         First Amendment rights by virtue of their employment.39 However, the Supreme Court
         has recognized that the government “may impose restraints on the job-related speech
         of public employees that would be plainly unconstitutional if applied to the public at
         large.” 40

         Absent proof of false statements knowingly or recklessly made, a public employee has
         the right to comment as a citizen on matters of public concern.41 However, when a
         public employee speaks not as a citizen upon matters of public concern, but instead as
         an employee about personal matters, government officials may take disciplinary action
         for inappropriate behavior or speech. As the Supreme Court has held, “[w]hen
         employee expression cannot be fairly considered as relating to any matter of political,
         social, or other concern to the community, government officials should enjoy wide
         latitude in managing their offices, without intrusive oversight by the judiciary in the
         name of the First Amendment.” 42 For example, “private speech” involving a complaint
         about changes to an employee’s duties may give rise to discipline,43 as may other
         speech that does not meet the public concern threshold, such as employees’ speech
         made “pursuant to their official duties.” 44 Examples of official-duty speech include job-
         related or media interviews, or anything that may fall within an employee’s duties.
         Absent unusual circumstances, a Federal court will not second-guess an OIG personnel
         decision based on private speech, even if it is unfair or unreasonable.45




39
   Federal courts of appeals have held that the government may not condition employment based on waiving a constitutional
right. See Pickering v. Bd. of Educ., 391 U.S. 563, 568 (1968) (teachers do not lose their First Amendment rights to comment as
citizens on matters of public interest in connection with the schools where they work); Keyishian v. Bd. of Regents, 385 U.S.
589, 605-06 (1967) (“The theory that public employment, which may be denied altogether may be subjected to any conditions,
regardless of how unreasonable, has been uniformly rejected.”).
40
   United States v. National Treasury Employees Union, 513 U.S. 454, 465 (1995).
41
   Pickering, 391 U.S. at 571-73 (high school teacher wrongfully dismissed for openly criticizing the Board of Education on its
allocation of school funds between athletics and education, and its methods of informing taxpayers about the need for
additional revenue because they were “matter[s] of legitimate public concern” upon which “free and open debate [was] vital to
informed decisionmaking by the electorate”). See Garcetti v. Cabellas, 547 U.S. 410 (2006); Connick v. Myers, 461 U.S. 138
(1983).
42
   Connick, 461 U.S. at 146.
43
   Nat’l Treasury Employees Union, 513 U.S. at 466.
44
   Garcetti, 547 U.S. at 421 (“When public employees make statements pursuant to their official duties, the employees are not
speaking as citizens for First Amendment purposes, and the Constitution does not insulate their communications from
employer discipline.”).
45
   Connick, 461 U.S. at 146-47 (“Ordinary dismissals from government service which violate no fixed tenure or applicable statute
or regulation are not subject to judicial review even if the reasons for the dismissal are alleged to be mistaken or
unreasonable.”).

                                                              11

                                 OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          First Amendment Guidance in a Social Media Policy

          Social media users, including Members of Congress and judges, sometimes fail to realize
          that information on social networks can be disseminated more widely and used for
          purposes other than intended. OIG employees are no exception. Experience has shown
          that absent a policy, the boundaries between social media use and office functions can
          become blurred. For example, law enforcement officers have posted material that has
          impeached their courtroom testimony, or caused them to be removed from Federal
          service, and inappropriate social media use could easily harm an audit.46 Employees
          need to know that their private social media use may be discoverable, and not
          everything is protected by the First Amendment.47

          Policies on employee use of social media are essential to help prevent employee
          missteps and protect the agency. All policies should have one baseline: Employees
          must make sure that their personal use of social media never creates conflicts with the
          work of their agency or OIG. All employees are responsible for ensuring that no
          information is disclosed through social media that might compromise OIG investigations,
          audits, or inspections. An OIG policy might contain the following language:

          •	 Expressing personal views pursuant to one’s official duties, whether on or off duty,
             may result in disciplinary action.48

          •	 Employees not authorized to speak on behalf of OIG must avoid giving the
             impression that they are representing OIG’s views. 49 Therefore, when appropriate,
             employees should be clear that they are speaking solely in their personal capacity
             and not representing the OIG.

          •	 Whether authorized to speak for OIG or not, employees may be disciplined for
             certain types of speech. Statements generally not afforded First Amendment

46
   See J. Dwyer, The Officer Who Posted Too Much on MySpace, N.Y. TIMES (Mar. 10, 2009),
http://www.nytimes.com/2009/03/11/nyregion/11about.html. Dwyer interviewed an officer whose MySpace posts allowed
someone to beat a felony weapons charge at State Supreme Court, Brooklyn. The arresting officer posted before the trial that
he was feeling “devious” and was “watching [violent police movie] to brush up on proper police procedure.” See also Spivey v.
Dep't of the Navy, 2012 MSPB LEXIS 5278 (MSPB 2012) (police officer removed from services for posting sensitive law
enforcement information on Facebook).
47
    E.g., Trail v. Lesko, No. GD-10-017249 (C.P. Pa. July 3, 2012) (before a requesting party will be granted unfettered “access” to
a Facebook account, the party must show a “sufficient likelihood” that the nonpublic postings would contain information that is
relevant to the litigation that is “not otherwise available”). The Lesko analysis varies from the standard threshold relevancy
model adopted by some courts and uses a balancing approach based on the “level of intrusiveness.” This opinion is an
introduction to the discoverability of private social media content in Pennsylvania and other jurisdictions.
48
   Garcetti, 547 U.S. at 421.
49
   Under 5 C.F.R. § 2635.702(b), government employees are prohibited from creating the appearance that the government
sanctions their views or activities. In addition, 5 C.F.R. § 2635.807(b)(2) requires employees involved in teaching, speaking, or
writing, to provide a disclaimer that the views expressed do not express the views of the U.S. Government.

                                                                12

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


               protection include those that reflect solely matters of internal or personal interest;
               false and defamatory statements about OIG and/or OIG employees; threats and
               insults; “fighting words;”50 and statements that unduly disrupt the office, undermine
               a supervisor's authority, or destroy necessary close working relationships. 51

          •	 Generally, employees may express themselves as private citizens about matters of
             concern and value to the public at large,52 unless such speech undermines OIG’s
             effectiveness and efficiency.

          •	 The First Amendment does not prohibit managerial discipline based on an
             employee’s speech made pursuant to official responsibilities because, in such a case,
             the employee speaks as an employee and not as a private citizen. 53 The First
             Amendment protects only speech that an employee makes as a private citizen
             concerning a matter of public concern.

          While a policy should be clear, it should not be too proscriptive. For example, a policy
          should not state that employees must allow OIG to vet blog posts before publication or
          require employees to get permission before posting a video on YouTube. Unless they
          are “reasonably necessary to protect the efficiency of the public service,”54 such
          restrictions are likely to be seen as a prior restraint on free speech and struck down by a
          court.55




50
   Chaplinsky v. New Hampshire, 315 U.S. 568, 572 (1942) (“[T]he lewd and obscene, the profane, the libelous, and the insulting
or ‘fighting’ words’—those which by their very utterance inflict injury or tend to incite an immediate breach of the peace”—do
not enjoy constitutional protection). See also R. A. V. v. St. Paul, 505 U.S. 377, 383 (1992) (categories of expression can,
consistently with the First Amendment, be regulated “because of their constitutionally proscribable content (obscenity,
defamation, etc.)” (emphasis in original)).
51
   E.g., Rankin v. McPherson, 483 U.S. 378, 388 (1987) (Pickering balance test considers such government interests in efficient
office functioning as "whether the statement impairs discipline by superiors or harmony among coworkers, has a detrimental
impact on close working relationships for which personal loyalty and confidence are necessary, or impedes the performance of
the speaker's duties or interferes with the regular operation of the enterprise"); City of San Diego v. John Roe, 543 U.S. 77, 84
(2004) (upholding city’s termination of police officer whose off-duty conduct brought the mission of the city police department
and the professionalism of its officers into serious disrepute, and whose speech was not a matter of public concern).
52
   E.g., Pickering v. Bd. of Educ., 391 U.S. 563, 574 (1968) (“[A]bsent proof of false statements knowingly or recklessly made,” a
public employee’s speech on matters of public concern may not form the basis of dismissal).
53
   Garcetti v. Cabellas, 547 U.S. 410, 421 (2006).
54
   United States v. National Treasury Employees Union, 513 U.S. 454, 474 (1995).
55
   E.g., Harman v. City of New York, 140 F.3d 111, 119 (2d Cir. 1998) (agency policy requiring prepublication review of any
information an employee intended to convey to the media was a prior restraint because it attempted to suppress speech in
advance rather than punish disruptive remarks after their effect was felt); Southeastern Promotions, Ltd. v. Conrad, 420 U.S.
546, 559 (U.S. 1975) (“a free society prefers to punish the few who abuse rights of speech after they break the law than to
throttle them and all others beforehand”); Cf. Weaver v. United States Info. Agency, 87 F.3d 1429, 1436 (D.C. Cir. 1996)
(regulation permissible because the need to protect against the dissemination of sensitive material outweighed employee’s
rights, but if it were read to authorize punishment or suppression of speech in advance, it would "raise serious constitutional
issues").

                                                               13

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov



          The Fourth Amendment and the Expectation of Privacy

          Another constitutional consideration of new media concerns the Fourth Amendment.56
          Government activity implicates the Fourth Amendment when government personnel
          conduct a “search” or a “seizure.” The Fourth Amendment protects citizens from
          unreasonable government intrusions into areas that are “constitutionally protected”57
          or where an individual has a reasonable expectation of privacy. 58 Depending on the
          policies and practices at an OIG, protected areas may include new media (and
          specifically, social media) activity on OIG-issued electronic devices and computers. No
          court that we know of has found new media to be a “constitutionally protected area”
          for Fourth Amendment purposes.59 Therefore, individuals will enjoy Fourth
          Amendment protection in their use of new media only when they have a reasonable
          expectation of privacy, which requires an “actual, subjective expectation of privacy” that
          society is prepared to recognize as “objectively reasonable.”60

          There can be no reasonable expectation of privacy in social media activities that do not
          restrict access, such as social media posts without privacy settings, because users
          knowingly expose their activities to the public.61 Accordingly, members of the public,
          and Federal employees who post information on social media accounts that are
          accessible to the public, have no reasonable expectation of privacy in those posts. For
          example, if a member of the public posts on an official OIG government social media
          account, he or she does not have a reasonable expectation of privacy in that
          information. Similarly, if a Federal employee tweets a message on her personal Twitter
          account but allows her account to be visible to the public, she has no reasonable
          expectation of privacy in her tweets. In addition, users may not expect privacy in
          noncontent, routing information of their Internet connections, such as to/from

56
   The Fourth Amendment states that the “right of the people to be secure in their persons, houses, papers, and effects, against 

unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but upon probable cause. . . .” U.S.

CONST. amend. IV. 

57
   Jones v. United States, 132 S. Ct. 945, 951 (2012) (government’s warrantless installation of a GPS tracking device on a 

personal vehicle constituted a search because it was a trespass upon a constitutionally protected effect, i.e., a vehicle, for the 

purpose of obtaining information). Constitutionally protected areas include individual’s persons, houses, papers, and effects. 

U.S. CONST. amend. IV.
58
   Katz v. United States, 389 U.S. 347, 361 (1967) (Harlan, J., concurring).
59
   But see EDWARD C. LIU, ET AL., CONG. RESEARCH SERV., R42409, CYBERSECURITY: SELECTED LEGAL ISSUES 19, n. 145 (2012) (suggesting a
court could find email to be a “paper” and a packet of data to be an “effect” under the Fourth Amendment).
60
   Katz, 389 U.S. at 361.
61
   Id. at 351 (“What a person knowingly exposes to the public, even in his own home or office, is not a subject of Fourth
Amendment protection.”); Smith v. Maryland, 442 U.S. 735, 743-44 (1979) (a person “has no legitimate expectation of privacy
in information he voluntarily turns over to third parties”). Social media users also have no reasonable expectation that
information they voluntarily provide to others, such as other social media users in their networks, will remain private. See
United States v. Meregildo, 883 F. Supp. 2d 523, 526 (S.D. N.Y. 2012) (a Facebook user’s “legitimate expectation of privacy
ended when he disseminated posts to his ‘friends’ because those ‘friends’ were free to use the information however they
wanted”).

                                                               14

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


          addresses for emails, Internet Protocol (IP) address of websites visits, volume of use,
          and other addressing and routing information. 62

          Federal employees do not lose Fourth Amendment protections by virtue of their Federal
          employment.63 The government may not require employees to waive their Fourth
          Amendment rights as a condition of employment,64 such as by requiring an employee to
          provide passwords to his or her personal social media accounts. Nor may the
          government require an employee to provide unfettered access to an employee’s
          personal computer or handheld devices, such as an iPhone or Blackberry.65

          While a government employee may have a reasonable expectation of privacy in the
          workplace, however, a government employer may take steps to reduce or eliminate that
          expectation.66 Employees using their government computers for personal use to
          communicate with friends via social media, for example, may have a subjective belief
          that their posts are private. Whether such expectation is objectively reasonable, and
          therefore entitled to Fourth Amendment protection, depends on the facts and
          circumstances of each situation. 67

          Even when an employee has a reasonable expectation of privacy in the workplace, an
          OIG may conduct a warrantless search without violating the Fourth Amendment under
          the “special needs” exception,68 or as long as it is not excessive in scope and is
          reasonably related to a work purpose. 69 An employer’s “special needs” for efficient and
          proper operation of the workplace make the probable cause and warrant requirements
          impracticable and unnecessary for legitimate, reasonable, work-related,
          noninvestigatory intrusions, and investigations of work-related misconduct. 70 To

62
   United States v. Forrester, 512 F.3d 500, 510 (9th Cir. 2008). See also Smith, 442 U.S. at 743-44 (no legitimate expectation of

privacy in dialing, routing, addressing, and signaling information transmitted to telephone companies). 

63
   See O’Connor v. Ortega, 480 U.S. 709, 717 (1987) (plurality opinion). 

64
   Federal courts of appeals have held that the government may not condition employment based on waiving a constitutional 

right. See, e.g., McDonnell v. Hunter, 809 F.2d 1302, 1310 (8th Cir. 1987) (if a search is unreasonable, “a government employer 

cannot require that its employees consent to that search as a condition of employment”); Keyishian v. Bd. of Regents, 385 U.S. 

589, 605-06 (1967) (“The theory that public employment, which may be denied altogether may be subjected to any conditions, 

regardless of how unreasonable, has been uniformly rejected.”).

65
   See infra Human Resources section for additional analysis on employee relations. 

66
   Whether an employee has a reasonable expectation of privacy in the workplace depends on several factors, including (1) the 

openness and accessibility of the workspace, (2) whether the employee has exclusive use of an area or item, (3) if the employer

gave the employee prior notice of the possibility of searches in that area, and (4) the employer’s common practice and 

procedure of searching the area. Thompson v. Johnson County Cmty. Coll., 930 F. Supp. 501, 507 (D. Kan. 1996) (factor 1); 

United States v. Taketa, 923 F.2d 665, 673 (9th Cir. 1991) (factor 2); Schowengerdt v. United States, 944 F.2d 483, 488 (9th Cir. 

1991) (factor 3); Am. Postal Workers Union v. United States Postal Serv., 871 F.2d 556, 560-61 (6th Cir. 1989) (factor 3); 

O’Connor, 480 U.S. at 717-18 (factor 4).

67
   O’Connor, 480 U.S. at 717 (noting that the determination of whether a government employee has a reasonable expectation 

of privacy in the workplace requires a case-by-case analysis). 

68
   Id. at 725.

69
   O’Connor, 480 U.S. at 725; City of Ontario v. Quon, 130 S. Ct. 2619, 2632 (2010).

70
   Id. 


                                                               15

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


          determine whether the special needs warrant exception applies, the Court balances an
          employee’s privacy expectations with the government’s interests. 71

          Reducing or Eliminating Employees’ Privacy Expectations 


          Although the Supreme Court has not addressed the issue, Federal courts have held that
          agencies may reduce or eliminate government employees’ expectation of privacy when
          using government computers or devices through regulations and agency practices, such
          as policies, consent banners, and computer-user agreements. 72 For example, the Fourth
          Circuit held that an employee did not have a legitimate expectation of privacy regarding
          his Internet use at work because his agency’s policy advised that the employer would
          electronically audit and monitor users’ access.73 Therefore, the OIG warrantless search
          of the employee’s computer and removal of his hard drive from his office did not violate
          the Fourth Amendment. 74

          Accordingly, OIGs should develop and implement a policy that notifies employees that
          they have no legitimate expectation of privacy whenever they are using a government-
          issued electronic device or computer, and similarly, that data exchanged on government
          equipment may be used by the government for official purposes. OIGs also should
          require employees to consent to an appropriately worded log-on banner and computer-
          user agreement.




71
   Nat’l Treasury Employees Union v. Von Raab, 489 U.S. 656, 665 (1989). If the government’s needs trumps an employee’s
privacy interests—and as long as a Federal employer has a legitimate, work-related reason to intrude on an employee’s privacy
expectations, and the intrusion is “reasonable under the circumstances”—the government does not need a warrant to conduct
a search. Id. “Dual purpose” situations, in which the employer conducts a reasonable search based on a legitimate, work-
related need, and also finds evidence of criminal conduct, do not require a warrant. The government does not lose its “special
need for the efficient and proper operation of the workplace” merely because the evidence obtained revealed a crime.
O’Connor, U.S. 480 at 723.
72
    E.g., United States v. Thorn, 375 F.3d 679, 683 (8th Cir. 2004), cert. granted, judgment vacated on other grounds, 543 U.S.
1112 (2005), judgment reinstated, 413 F.3d 820 (8th Cir. 2005) (policy eliminated state employee's reasonable expectation of
privacy in the contents of the computer); United States v. Angevine, 281 F.3d 1130, 1134-35 (10th Cir. 2002) (banner and
computer policy eliminates a state university professor's reasonable expectation of privacy in data downloaded from the
Internet); United States v. Monroe, 52 M.J. 326, 330 (C.A.A.F. 2000) (Air Force sergeant had no reasonable expectation of
privacy in his government email account because it was reserved for official business and network banner informed him that
use was subject to monitoring); United States v. Hamilton, 778 F. Supp. 2d 651, 654 (E.D. Va. 2011) (computer use policy
defeated public school employee’s expectation of privacy when computer use policy stated that contents of the computer were
subject to inspection, defendant signed forms acknowledging the policy, and a banner informed him of this policy when logging
on to the system); Wasson v. Sonoma Cnty. Junior Coll. Dist., 4 F. Supp. 2d 893, 905-06 (N.D. Cal. 1997) (public employer's
computer policy giving the employer the right to access all information stored on the employer's computers eliminates an
employee's reasonable expectation of privacy in files stored on the computers); Bohach v. City of Reno, 932 F. Supp. 1232, 1235
(D. Nev. 1996) (police officers do not retain a reasonable expectation of privacy in their use of a pager system because of order 

announcing that all messages would be logged).

73
   United States v. Simons, 206 F.3d 392, 398 (4th Cir. 2000). 

74
   Id. 


                                                               16

                                 OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          To ensure compliance with the Fourth Amendment and other laws implicating Fourth
          Amendment concerns, the Department of Justice’s Office of Legal Counsel (OLC)
          recommends the following model log-on banner language:75

          •	 You are accessing a U.S. Government information system, which includes (1) this
             computer, (2) this computer network, (3) all computers connected to this network,
             and (4) all devices and storage media attached to this network or to a computer on
             this network. This information system is provided for U.S. Government-authorized
             use only.
          •	 Unauthorized or improper use of this system may result in disciplinary action, as well
             as civil and criminal penalties.
          •	 By using this information system, you understand and consent to the following:
             o	 You have no reasonable expectation of privacy regarding communications or
                 data transiting or stored on this information system.
             o	 At any time, and for any lawful government purpose, the Government may
                 monitor, intercept, and search any communication or data transiting or stored on
                 this information system.
             o	 Any communications or data transiting or stored on this information system may
                 be disclosed or used for any lawful government purpose.

                                 [click button: I AGREE]


          If an OIG decides to implement its own banner language and computer-user
          agreements, care should be given to ensure that any diminution of an employee’s
          expectation of privacy is explicit and comprehensive. No matter how explicit a banner
          is, though, the Federal Law Enforcement Training Center’s Legal Division Handbook
          warns agencies against relying on them exclusively, so it is advisable to consult counsel
          before conducting an electronic search.76

          Information and Privacy

          In addition to constitutional issues, OIGs must consider information and privacy issues
          for both outbound and inbound communications when implementing a social media
          program. Three key information and privacy laws come into play in the new media
          context: the Privacy Act of 1974, as amended (Privacy Act); 77 the E-Government Act of
          2002, as amended (E-Government Act); 78 and the Freedom of Information Act (FOIA), as
          amended.79 An OIG needs to ensure not only its own compliance with these three laws,

75
   Legal Issues Relating to the Testing, Use, and Deployment of an Intrusion-Detection Sys. (Einstein 2.0) to Protect Unclassified 

Computer Networks in the Exec. Branch, 33 Op. O.L.C. 1 2009, 5-6 (2009) [hereinafter Legal Issues Relating to EINSTEIN 2.0]. 

76
   U.S. DEP’T OF HOMELAND SEC., FEDERAL LAW ENFORCEMENT TRAINING CENTER LEGAL DIVISION HANDBOOK 434 (2012). 

77
   5 U.S.C. § 552a. 

78
   Pub. L. No. 107-347, 116 Stat. 2899 (codified as amended at scattered sections 44 U.S.C.). 

79
   5 U.S.C. § 552.


                                                                17

                                  OFFICE OF INSPECTOR GENERAL

                                            Department of Homeland Security

                                             Washington, DC 20528 / www.oig.dhs.gov


          but also compliance of any third-party social media provider whose products it uses.
          Generally, each social media provider has its own privacy policy. An OIG should direct
          the public to read each third-party policy carefully before participating or providing
          information.

          The Privacy Act of 1974

          The Privacy Act is the primary law governing how the Federal Government collects, uses,
          maintains, and disseminates information about individuals. It protects records about
          individuals when such records are maintained in a “system of records” under the
          agency’s control 80 and are retrieved from that system by name, Social Security number,
          or any other identifier assigned to the individual.81

          With certain exceptions, the Privacy Act prohibits disclosure of such records to any
          person or other agency without the written consent of the individual(s) to whom the
          records pertain. 82 In addition to the exceptions that are contained in the Privacy Act,
          additional exceptions appear as “routine uses” in a “System of Record Notice” (SORN)
          published in the Federal Register. Any OIG implementing a social media program should
          review the exceptions and ensure that all outbound social media communications that
          contain Privacy Act-protected information comply with one of the exceptions.83

          The Privacy Act also generally requires that agencies provide individuals the right to
          access, amend, and correct their records,84 although OIGs have traditionally exempted
          their investigatory files under the Privacy Act from this requirement.85 Regarding


80
    The Privacy Act also applies to government contractor-operated systems of records. 5 U.S.C. § 552a(m).
81
    Id. at (a)(4), (5). Personally Identifiable Information (PII), which is generally protected by the Privacy Act, includes any other
“information that can be used to distinguish or trace an individual’s identity, either alone or when combined with other
personal or identifying information that is linked or linkable to a specific individual.” Joshua B. Bolten, M-03-22, OMB Guidance
for Implementing the Privacy Provisions of the E-Government Act of 2002, OFF. MGMT. & BUDGET (Sept. 26, 2003), available at
http://www.whitehouse.gov/omb/memoranda_m03-22 [hereinafter OMB M-03-22] (citing definition of PII from Clay Johnson
III, M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information, OFF. MGMT. & BUDGET
(May 22, 2007), available at http://www.whitehouse.gov/OMB/memoranda/fy2007/m07-16.pdf). Whether information can be
used to uncover an individual’s identity is determined through a case-by-case assessment of the specific risk of identification.
82
    5 U.S.C. § 552a(b). The Privacy Act contains certain explicit exceptions, including internal use on a need-to-know basis,
disclosures required under the FOIA, disclosures in response to certain court orders, as well as official requests of congressional
committees for matters their official jurisdiction and the U.S. Government Accountability Office (GAO). Id. One exception allows
agencies to establish additional “routine uses” (disclosures) compatible with the purpose for which the record was collected,
provided those “routine uses” are published in the Federal Register notice establishing the relevant system(s) of records from
which the records will be disclosed. Id. at (b)(3).
83
    Privacy Best Practices for Social Media, CIO Council, at 10 (July 2013), #5, available at https://cio.gov/wp­
content/uploads/downloads/2013/07/Privacy-Best-Practices-for-Social-Media.pdf (suggesting additional requirements for
sharing information collected via social media) [hereinafter CIO Council Privacy Best Practices].
84
    Id. at (d).
85
    See, e.g., id. at (j)(2) (criminal investigatory files); (k)(2) (law enforcement investigatory files other than those covered by the
(j)(2) exemption); and (k)(5) (investigatory materials for determining suitability, eligibility, qualification for Federal civilian

                                                                  18

                               OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         records that are not exempt, OIGs should give careful consideration to inbound social
         media communications and how (or whether) they will be treated, kept, stored, and
         maintained. Indeed, retaining such communications may require the creation of a new
         system of records, as (to use one example) comments to a blog post from the public
         might not fall under the definition of any existing system. 86

         Since the Privacy Act generally requires agencies to maintain information in their
         systems of records only such information about individuals that is “relevant and
         necessary” to accomplish an agency purpose required by statute or Executive Order
         (EO), it may be that much of the inbound social media communication that an OIG
         receives should not be maintained at all.87 For example, while fraud allegations
         submitted through social media likely are “relevant and necessary,” and thus may merit
         retention and storage, responses to tweets about an OIG initiative may not qualify.

         When creating social or other new media accounts, databases, or programs, OIGs must
         examine whether they may be establishing a new system of records within the meaning
         of the Privacy Act. The definition of a system of records, as noted earlier, includes
         whether the records will be under agency “control,” whether those records will be
         “about“ individuals, and whether records will be “retrieved” from the system by name
         or other personal identifier. 88 If the OIG determines that it will be creating a new
         system of records—rather than simply incorporating records into an existing OIG
         system—the OIG must first seek public comment by publishing a SORN, and must also
         notify Congress and OMB of the proposed system. 89 This procedural requirement is not
         merely ministerial, as agency officers and employees can be held criminally liable if they
         willfully maintain a system of records without publishing the legally required SORN
         beforehand.90 OIGs also may be subject to civil liability for maintaining inaccurate, out­
         of-date, or incomplete data collected about individuals in the OIG’s systems of records,
         if that information is then used unfairly to make an adverse determination relating to an
         individual’s qualifications, character, rights, opportunities, or benefits to which the
         individual may be entitled. 91




employment, military service, Federal contracts, or classified information access, but only to the extent such material would 

reveal a confidential source). An agency must issue formal, published regulations in order to invoke these exemptions.

86
   For example, the Special Inspector General for Afghanistan Reconstruction has created SIGAR-11, Social Media Records, and 

SIGAR-12, Internal Electronic Collaboration Tools. See 77 FR 46551 (Aug. 3, 2012). 

87
   5 U.S.C. § 552a(e)(1). 

88
   OIGs should consult with counsel in making this determination.

89
   5 U.S.C. §§ 552a(e)(4), (11); OMB Circular No. A-130, Management of Federal Information Resources, Revised, OFF. MGMT. &

BUDGET App. I, para. 4 (2000), available at http://www.whitehouse.gov/omb/circulars_a130_a130trans4 (Federal agency 

reporting requirements to OMB and Congress). Agencies should also make their SORNs available on their agency websites. 

90
   5 U.S.C. § 552a(i)(2). 

91
   Id. at (e)(5), (g)(1)(C). 


                                                              19

                                  OFFICE OF INSPECTOR GENERAL

                                            Department of Homeland Security

                                             Washington, DC 20528 / www.oig.dhs.gov


          In light of these provisions, OIGs must carefully consider and weigh the benefits and
          risks of collecting, maintaining, or using Internet rumor, hearsay, and other third-party
          statements that may be difficult to verify. Information that an individual has directly
          posted on his or her own behalf may not be intended to be strictly factual or accurate,
          even if it may reflect the individual’s personal views or state of mind at the time. As
          noted above, because individuals may have no legal right under the Privacy Act to
          obtain mandatory access to their investigatory files, OIGs that decide to collect such
          information should also consider how individuals will be able to evaluate and ensure its
          accuracy and reliability. 92 For example, the OIG may consider whether it is feasible or
          appropriate to offer an individual the opportunity to review, explain, or challenge the
          accuracy of such information, if it will be used as a basis for decisions regarding his or
          her employment, referral for prosecution, or other actions regarding the individual’s
          rights, benefits, or privileges.

          When using social media or other means (e.g., online forms and questionnaires) to
          collect information from individuals for any new or existing system of records, OIGs
          generally must include a statement, on the form used to collect the information or on a
          separate form that can be retained by the individual, about the OIG’s authority to solicit
          the information, the purpose for which the information is intended to be used, routine
          uses, and any consequences of not providing the requested information (“Privacy Act
          statement”). 93 As a result, creating a new system of records for inbound social media
          communications, or storing such communications in existing systems, creates a notice
          requirement in the operation of a social media program.

          It should be noted that the Privacy Act does not prohibit agencies from maintaining
          records of fighting words, words that imminently incite illegal behavior, threats, and
          obscenities, or other such statements that may be posted on an OIG blog or online
          forum, so inbound communication of this nature can be retained and provided to
          appropriate authorities. But without a legitimate law enforcement purpose, consent, or
          statutory authority, the Privacy Act forbids the government from maintaining records
          describing how an individual exercises his or her right First Amendment rights (e.g.,
          speech, religion, assembly), unless certain exceptions apply.94 Therefore, collecting and




92
   For OIG investigatory files exempted solely under (k)(2), individuals have a right of access (except to information revealing a 

confidential source) if the individual has been denied rights, benefits or privileges on the basis of such records. See id. at (k)(2). 

93
   Id. at (e)(3).

94
   5 U.S.C. § 552a(e)(7). This restriction applies even if the agency does not maintain or intend to maintain the information in a 

“system of records” as defined by the Act. For a collection of cases, see OFFICE OF INFO. & PRIVACY, U.S. DEP’T OF JUSTICE, GUIDE TO THE

FREEDOM OF INFORMATION ACT 46-47 (2009), available at http://www.justice.gov/oip/foia_guide09.htm [hereinafter FOIA Guide]. 

Note that this restriction does not require or authorize an agency to destroy any records that it has been required or authorized

to collect and retain under Federal law (e.g., the Federal Records Act), as outlined in the Records Management section infra. 


                                                                  20

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         storing a series of tweets or blog posts for official purposes—even if relevant to the
         OIG’s mission—may violate the Privacy Act.95

         The Privacy Act also limits the extent to which an agency may disclose information from
         its systems of records about individuals without their consent. Since one of the primary
         OIG uses of new media is to disseminate or share information about its audit and
         investigative work, it is critical that such disclosures (whether in tweets, posts, or blogs)
         not violate the Privacy Act. When nonpublic information is to be communicated
         through new media about, for example, an OIG investigation, steps should be taken to
         protect the identity of the subject or others. This may require editing or redacting
         written documents, editing or blurring video content, or taking other steps to protect
         individuals’ identities.

         Each OIG’s routine uses, already published as part of the SORN in the Federal Register,
         will guide OIG in its disclosures, but OIGs using new media may wish to revisit and, if
         appropriate, revise their routine uses and systems of records accordingly. 96

         The E-Government Act of 2002 and Privacy Impact Assessments

         New media fits within the 11 stated purposes of the E-Government Act, which include
         promoting citizen participation in government; interagency collaboration in providing
         government services; and transparency and accountability within the Federal
         Government.97 OIGs must balance their pursuit of the E-Government’s Acts goals,
         however, against the privacy provisions contained in Section 208 of the E-Government
         Act, designed to ensure sufficient protections for the privacy of personal information as
         agencies engage citizens electronically. Section 208 establishes requirements for




95
   Under Section 552a(e)(7), agencies may maintain records of First Amendment activity if “expressly authorized by statute or
by the individual about whom the record is maintained or unless pertinent to and within the scope of an authorized law
enforcement activity.” Nonetheless, some agencies are finding ways to monitor social media content in compliance with the
Privacy Act. For example, according to a Department of Homeland Security (DHS) SORN titled DHS/OPS-004 Publicly Available
Social Media Monitoring and Situational Awareness Initiative System of Records, 76 Fed. Reg. 5603 (Feb. 1, 2011), DHS is
engaged in social media monitoring that is “not designed” to collect PII but may collect it for “certain narrowly tailored
categories” and may share the information in a situation involving life and death. In June 2012, the Navy issued a solicitation
that may help develop metrics tools for the public sector, allowing it to monitor the conversation “surrounding” the Navy. See
Solicitation No. N00189-12-T-Z131, Social Media Monitoring, DEP’T OF THE NAVY (2012), available at
https://www.neco.navy.mil/upload/N00189/N0018912TZ13112TZ131.doc.
96
   To cite some examples of agencies that have amended their system of records to account for social media, the Consumer
Financial Protection Bureau has amended two of its systems of records to allow for disclosure to viewers of its social media and
blog posts. See 77 FR 64962 (Oct. 24, 2012) and 77 FR 59386 (Sept. 27, 2012). The Federal Housing Finance Agency has
amended a system of records to account for individuals or organizations that provide information through social media, among
other methods. See 77 FR 47641 (Aug. 9, 2012).
97
   44 U.S.C. § 3501 note. Pub. L. No. 107-347, 116 Stat. 2899, is codified as amended at scattered sections 44 U.S.C.

                                                              21

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


          conducting, reviewing, and publishing Privacy Impact Assessments (PIAs), and for
          posting privacy policies on Federal agency websites. 98

          Government agencies are required to conduct PIAs for information technology (IT)
          systems (e.g., software, hardware, Web development, cloud services) that will collect,
          maintain or disseminate personally identifiable information (PII).99 This assessment
          must take place before an agency develops in-house or procures from outside sources
          such IT, or before it initiates a new online collection of information within the meaning
          of the Paperwork Reduction Act (PRA), as amended, using such technology (e.g., new
          online web form or public survey that collects PII).100

          As explained in OMB Memorandum M-03-22, OMB Guidance for Implementing the
          Privacy Provisions of the E-Government Act of 2002, a PIA evaluates and documents not
          only how the agency will secure the PII, but also other nonsecurity issues potentially
          affecting privacy, including the availability or adoption of any alternative processes or
          technologies to mitigate such risks, and compliance with any other applicable legal,
          regulatory, and policy requirements. 101 These additional privacy issues in the PIA
          include, for example, the purpose and scope of the PII to be collected, maintained, or
          disseminated by the technology; how the PII will be used or shared; how the agency will
          provide individuals with notice and applicable consent or access rights, if any; how and
          when PII will be retained or destroyed; and whether a system of records will be created
          under the Privacy Act.

          In addition, agencies are required to perform PIAs and update them as necessary where
          a system change creates new privacy risks. This may occur—

          •	 When converting paper-based records to electronic systems;
          •	 When user-authenticating technology (e.g., password, digital certificate, biometric)
             is newly applied to an electronic information system accessed by members of the
             public; or
          •	 When OIGs work together on shared functions involving significant new uses or
             exchanges of information in identifiable form.102


98
   Id. The E-Government Act also includes FISMA. For a discussion of the FISMA requirements, see infra Information Security
section.
99
   Id. The E-Government Act uses the term information in “identifiable form,” which means “any representation of information
that permits the identity of an individual to whom the information applies to be reasonably inferred by either direct or indirect
means.”
100
    The PRA is codified at 44 U.S.C. §§3501-20; see also 5 C.F.R. Part 1320. In general, the PRA applies when an agency poses a
set of identical questions to collect information from 10 or more persons (excluding agencies, instrumentalities, or Federal
employees). 44 U.S.C. § 3501, et. seq. See infra Information Collection section.
101
    OMB M-03-22, supra note 81.
102
    Id. Attachment A.

                                                               22

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


          A PIA is not required when information relates to internal government operations or has
          been previously assessed under an evaluation similar to a PIA. In addition, a PIA is not
          required where privacy issues are unchanged, such as when government-run websites,
          IT systems, or collections of information do not collect or maintain information in
          identifiable form about members of the general public, or when there are minor
          changes to a system or collection that do not create new privacy risks.

          Adapted PIAs and Third-Party Websites or Apps

          OMB Memorandum M-10-23, Guidance for Agency Use of Third-Party Websites and
          Applications, modified OMB Memorandum M-03-22’s PIA guidance because Federal
          agency use of third-party websites and apps raised “new questions.”103 Specifically, M­
          10-23 requires an “adapted PIA” when an agency’s use of a third-party website or app
          may make PII available to the agency. 104 Common examples include opening a social
          media account, embedding a third-party app on an official government website, or
          retaining a third-party developer to create and distribute an app for public use. M-10­
          23 sets forth the information that an adapted PIA must contain, including:

          •    The specific purpose of an agency’s use of the third-party website or application;
          •    Any PII that is likely to become available to the agency through such use;
          •    Intended or expected use of the PII;
          •    With whom it will share PII;
          •    Whether, how, and for how long it will maintain the PII; and
          •    How it will secure the PII it uses or maintains.

          In addition, each use of a third-party website or app should be covered in a single,
          separate PIA. However, a single PIA may cover multiple websites or apps if they are
          “functionally comparable” and the agency practices “substantially similar across each
          website and application.” 105

          Adapted PIAs should be tailored to address specific functions of a website or app but
          need not be more elaborate than the OIG’s other PIAs. OMB guidance emphasizes that,
          regardless of the third-party website or app involved, agencies must limit the collection
          of PII through the website or app to the minimum necessary to accomplish a purpose
          required by statute, regulation or EO. OIGs must also examine the third party’s own


103
    See Peter R. Orszag, M-10-23, Guidance for Agency Use of Third-Party Websites and Applications, OFF. MGMT. & BUDGET (June
25, 2010), available at http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-23.pdf.
104
    The term “make PII available” includes any agency action that causes PII to become available or “accessible” to the agency,
whether or not the agency actually solicits that PII, or collects and incorporates it into agency records. See id. (defining “make
available”).
105
    Id.

                                                               23

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


          privacy policy and practices carefully to evaluate the privacy risks and determine if the
          website or app is appropriate for OIG use.

          OMB Memorandum M-10-23 also imposes specific public disclosure requirements
          before an agency can use a third-party website or app. First, a PIA must be posted
          publicly (e.g., on an OIG’s official website with other PIAs), although portions that would
          compromise IT security may be redacted. Second, a description of the usage of the
          third-party website or app must be added to the agency’s “privacy policy” on its
          website(s). 106 Third, when feasible, a “privacy notice” must be posted on the third-party
          website or app itself in locations where PII could be made available to the agency (e.g.,
          an OIG social media profile or account).107 Fourth, the agency should apply
          “appropriate branding” to its third-party page or app to help the public distinguish the
          agency’s activities from nongovernment actors. In addition, M-10-23 provides that the
          agency’s Senior Agency Office for Privacy (SAOP) be consulted in evaluating whether to
          use a third-party website or app, including how many PIAs are required, as the SAOP has
          a “central-policy making role” and “overall responsibility and accountability” for
          ensuring privacy protection. 108

          One final matter to consider when an OIG uses a third-party website or app is that the
          public must be able to obtain comparable information and services from the OIG
          through alternative sources. 109 In other words, the third-party website or app cannot be
          the exclusive means for disseminating the information or soliciting or accepting
          feedback. Thus, members of the public must be able to learn about an OIG’s activities
          or communicate with an OIG in other ways, such as through the OIG’s own website.
          Information about these alternative sources should be disclosed, for example, by linking
          back to the OIG’s home page in the agency’s privacy notice on the third-party website or
          app, as required by OMB’s Memorandum M-10-23 and discussed earlier.

          While the E-Government Act applies only to the government, an OIG needs to consider
          what social media providers do with information that the public provides in connection
          with OIG-sponsored activities. For example, some social media providers may try to
          collect PII from consumers communicating with the government in order to market to
          them. Some might try to collect consumer information, including photographs and

106
    Id. (describing what a Federal agency’s privacy policy must contain, including, “when feasible,” links to the relevant privacy 

policies of the third-party site or app). 

107
    Id. The Privacy Notice is separate from the PIA, and discloses somewhat different information, including that the third-party 

site or app is not a Government site or app, and that the individual may be providing information to nongovernmental third 

parties. The Privacy Notice must also link to the agency’s official website and Privacy Policy. An agency “should take all 

practical steps to ensure that its Privacy Notice is conspicuous, salient, clearly labeled, written in plain language, and 

prominently displayed at all locations where the public might make PII available to the agency” on the third-party site or app.

108
    Id. (citing Clay Johnson III, M-05-08, Designation of Senior Agency Officials for Privacy OFF. MGMT. & BUDGET (Feb. 11, 2005), 

available at http://www.whitehouse.gov/sites/default/files/omb/assets/omb/memoranda/fy2005/m05-08.pdf). 

109
    29 U.S.C. § 794d.


                                                                24

                                  OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                             Washington, DC 20528 / www.oig.dhs.gov


          videos, to sell to businesses without notifying or paying the creators of the information.
          To ensure that consumers know that a third-party privacy policy governs whenever they
          are on a third-party website, an OIG should consider using an “about us” feature on all
          its social media accounts. “About us” should explain the relationship between the social
          media service and the OIG, and clarify which privacy policy applies and when. An OIG
          also should consider using a “goodbye” banner that pops up when a user leaves the OIG
          website. This banner should feature the privacy policy of the third-party social media
          website as users click to the next screen. Since users may also access OIG-sponsored
          social media websites directly, and not through the OIG website, an OIG should make
          sure that those OIG-sponsored sites contain clear language about the privacy policy that
          applies. 110

          Web Measurement and Customization Technologies or “Cookies”

          One particularly pertinent consideration with respect to third-party websites (as well as
          OIG websites) is the use of “cookies,” which are “small bits of software that are placed
          on a web user’s hard drive . . . [that] can track the activities of users over time and
          across different websites.” 111 Consistent with the E-Government Act and recognizing
          that cookies may be useful in “improv[ing] federal services online through conducting
          measurement and analysis of usage or through customization of the user’s experience,”
          OMB Memorandum M-10-22, Guidance for Online Use of Web Measurement and
          Customization Technologies, clarified the circumstances and conditions under which an
          agency may use cookies or other tracking technologies. 112 Agencies may now use
          single-session web measurement and customization technologies, as well as
          multisession technologies with and without PII, subject to certain limitations.113

          Except for internal agency, law enforcement, national security, or intelligence activities,
          an OIG may not use such cookies/tracking to—

          •	 Track user individual-level activity on the Internet outside of the website or app
             from which the technology originates;


110
    See Disclaimer of Liability or Endorsement, OFF. OF GOV. ETHICS, http://www.oge.gov/About/Website-Policies/Disclaimer-of­
Liability-or-Endorsement/ (last visited Aug. 16, 2013) (“We strongly recommend that you review the policies of any outside 

websites you visit from this site, since you will be subject to the privacy, security, and accessibility policies of those other sites, 

once you leave OGE.gov.”) [hereinafter OGE Disclaimer of Liability]. 

111
    Jacob J. Lew, M-00-13, Privacy Policies and Date Collection on Federal Websites, OFF. MGMT. & BUDGET (June 22, 2000), 

available at http://www.whitehouse.gov/omb/memoranda_m00-13. 

112
    Peter R. Orszag, M-10-22, Guidance for Online Use of Web Measurement and Customization Technologies, OFF. MGMT. &

BUDGET (June 25, 2010), available at http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-22.pdf 

[hereinafter OMB M-10-22].

113
    Single-session technologies remember a user’s online interactions using an identifier that is used only within a single session 

or visit, is not later reused, and is deleted immediately after the session ends. Multisession technologies remember user’s 

online interactions through multiple sessions, using a persistent identifier for each user.


                                                                  25

                                OFFICE OF INSPECTOR GENERAL

                                     Department of Homeland Security

                                     Washington, DC 20528 / www.oig.dhs.gov


            •	 Share data obtained through such technologies with other departments or agencies,
               without the user’s consent;
            •	 Cross-reference, without the user’s consent, any data gathered through such
               technologies against PII to determine individual-level online activity;
            •	 Collect PII without the user’s consent; or
            •	 Perform any like usages so designated by OMB. 114

            OMB M-10-22 further states that agencies may not use web measurement and
            customization technologies if they do not allow the public to opt out, and should explain
            in their privacy policies why they decided to use or not use such technologies so that
            users can make an informed decision on whether to opt out.

            While OMB M-10-22 establishes a baseline for Federal agency compliance, OIGs have
            added considerations. A unique feature of many OIG websites is a page to allow the
            public to submit allegations of potential fraud, waste, and abuse relating to Federal
            programs and operations. Those reporting pages often give the user the option to
            submit information anonymously. Some OIGs make it clear that website and email
            hotline complaints are expressly not given confidentiality. However, when third-party
            JavaScript code for web measurement and customization is embedded on a website, a
            record is created that tracks, at a minimum, the IP address of individuals visiting each
            page. Most of these tools track users’ actions to a granular level that not only identifies
            that they visited the main website, but also stores and tracks the steps that the users
            took when clicking through the website.

            As a result, an individual attempting to submit information anonymously regarding
            suspected fraud, waste, or abuse may expect anonymity, but when correlated with
            other data, this tracking may be able to identify the individual. For instance, IP address
            information can provide relatively accurate geolocation information about the user.
            Furthermore, if an individual is logged into a social media service or an online email
            service that has an information sharing agreement with the third-party website
            measurement service used on the fraud submission page, it is foreseeable that sufficient
            information can be correlated to permit the social media service, the email service, or
            the third-party web measurement service (or all three) to identify the complainant.

            Ultimately, the use of this third-party technology in OIG web pages creates a scenario
            where users believe that they are anonymously submitting information but are in fact
            being tracked both by the third-party website measurement service and possibly also by
            other business entities with which the OIG has not entered a data use agreement. The
            information could be held by such private companies for indefinite periods of time,


114
      OMB M-10-22, supra note 112.

                                                      26

                               OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         based upon their individual privacy policies, and disclosed voluntarily or even be subject
         to subpoena should the private entity be embroiled in litigation.

         Finally, as with third-party websites and apps, an OIG must ensure that individuals who
         wish to avoid tracking technologies can obtain comparable information or services
         without such tracking, whether on the OIG’s own website or on a third-party website or
         app used by the OIG. For example, OIGs may allow users to opt out and access the
         information anyway, or they may refer users to an alternate OIG home page or other
         website that does not contain the tracking technology. 115

         Freedom of Information Act

         Another information law issue that has arisen with respect to social media is how social
         media will affect OIGs’ responsibilities under the FOIA. 116 The FOIA provides individuals
         with a right, enforceable in court, to request and obtain access to Federal agency
         records, except to the extent that records or portions of records are protected from
         public disclosure by a statutory exemption or exclusion. The E-FOIA amendments of
         1996 expanded the definition of “records” to include “any information that would be an
         agency record subject to the requirements of this section when maintained by an
         agency in any format, including an electronic format.” 117

         Government information posted on OIG websites or via third-party social media
         websites becomes part of the public domain upon its posting. This voluntary disclosure
         of information outside of the OIG may compromise the ability to withhold such
         information in the future under the FOIA. In addition, third-party comments may be
         subject to the FOIA. The Office of Government Ethics (OGE) provides the following
         disclaimer about what it may be required to provide under FOIA:

                   OGE may be legally required, for example, by the Freedom of Information Act or
                   a court order, to post documents generated by third parties that may contain
                   offensive, defamatory, or misleading or otherwise inappropriate content. The
                   OGE disclaims responsibility for the content of these documents.118

         Any information created on an internal social media page would be subject to the FOIA.
         This information is treated the same as emails, drafts, reports, and the like, which are
         created electronically and are subject to the FOIA. In this case, however, because the


115
    Id.
116
    5 U.S.C. § 552. FOIA presents social media issues with respect to both information and privacy, and records management. 

See infra Records Management section. 

117
    Id. at (f)(2).

118
    See OGE Disclaimer of Liability, supra note 110. 


                                                              27

                                 OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          records have not been distributed to the public, statutory exemptions could still be
          applied to the records.

          A related issue is whether an OIG may accept FOIA requests through social media
          outlets. The FOIA states that an agency shall make records promptly available to any
          person who "reasonably describes" the records sought and requests them in accordance
          with the agency's published FOIA regulations. 119 Depending on the applicable
          regulations, it may be acceptable to receive requests using new media. The request
          only needs to be specific enough to enable an agency employee familiar with the
          subject area to locate the record with a “reasonable amount of effort.”120 OIGs must be
          familiar with their published FOIA regulations and make a determination if requests
          made through social media would be accepted.

          Finally, it should be noted that OIGs are not required to provide FOIA requesters with
          documents that are already available to the public. 121 This includes information on the
          OIG’s website and any publicly accessible social media content.

          Information Collection

          In addition to the government’s responsibilities under the Privacy Act, E-Government
          Act, and FOIA, an OIG also should be mindful of two laws that may come into play when
          it receives information from the public. Before collecting information from the public,
          an OIG needs to consider the PRA and the Federal Advisory Committee Act (FACA), as
          amended.122

          Paperwork Reduction Act

          One of the PRA’s goals is to reduce information collection burdens on the public. 123 To
          help achieve that goal, the PRA requires an agency to receive OMB approval before
          collecting information in any situation where 10 or more respondents are involved and
          the questions are standardized in nature. 124 The process to obtain approval involves
          several steps, including publishing a Federal Register notice and preparing an
          information collection request package. 125




119
    5 U.S.C. § 552(a)(3)(A). 

120
    See FOIA Guide, supra note 94.

121
    Id. at 55. 

122
    5 U.S.C. app. 2.

123
    44 U.S.C.§ 3506(b)(1)(A). 

124
    44 U.S.C. § 3502(3) (defining the term "collection of information"). 

125
    44 U.S.C. § 3507.


                                                                 28

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         The PRA applies to the collection of information “regardless of form or format.” 126 It
         follows that the PRA applies to the collection of information through the use of new
         media and web-based interactive technologies. However, there are exceptions: OMB
         memorandum Social Media, Web-Based Interactive Technologies, and the Paperwork
         Reduction Act explains circumstances in which the PRA does not apply to social
         media. 127 For example, an OIG’s use of blogs, wikis, and other social networks, to
         “publish” solicitations for public comment or conduct virtual public meetings may fall
         under the PRA’s “general solicitations” exception.128 This exception covers facts or
         opinions submitted in response to general solicitations of comments from the public,
         published in the Federal Register or other publications, regardless of the form or format,
         provided that no person is required to supply specific information pertaining to the
         commenter, other than that necessary for self-identification, as a condition of an
         agency’s full consideration of the comment.

         When seeking comments, an OIG should pose open-ended questions that solicit broad,
         unstructured answers, and avoid asking specific questions and disseminating surveys
         with identical questions. For example, an OIG may allow the public the opportunity to
         comment on discussion topics on blogs or other social media websites but should avoid
         posting web polls and satisfaction surveys that ask specific questions. An OIG may
         engage in brainstorming activities involving social media, such as crowdsourcing, but
         should avoid collecting any information beyond name and email or mailing address (e.g.,
         age, sex, race/ethnicity, employment, or citizenship status). 129 Generally, wikis will not
         trigger the PRA because they “merely facilitate interactions between agencies and the
         public.” 130 In addition, wikis and other web-based collaboration tools that are limited to
         internal agency use are exempt from the PRA, as are interagency wikis such as OMB
         MAX. 131 Finally, rankings, ratings, votes, and contests to determine a winner do not
         implicate the PRA unless they elicit a structured response (i.e., a series of questions that
         entrants must answer to take part in the contest), or if an OIG collects demographic
         information about the entrants.132




126
    44 U.S.C. § 3502(3)(A); 5 C.F.R. § 1320.3(h). 

127
     Cass R. Sunstein, Social Media, Web-Based Interactive Technologies, and the Paperwork Reduction Act, OFF. MGMT. & BUDG. 

(Apr. 7, 2010), available at 

http://www.whitehouse.gov/sites/default/files/omb/assets/inforeg/SocialMediaGuidance_04072010.pdf [hereinafter OMB 

PRA Memo]. 

128
    5 C.F.R. § 1320.3(h)(4). 

129
    “Crowdsourcing” is “the practice of obtaining needed services, ideas, or content by soliciting contributions from a large 

group of people and especially from the online community rather than from traditional employees or suppliers.” MERRIAM­
WEBSTER (2013). 

130
    OMB PRA Memo, supra note 127. 

131
    Id.
132
    Id.

                                                              29

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


         Federal Advisory Committee Act

         The FACA governs the government’s use of Federal “advisory committees.” A Federal
         advisory committee is a group established by statute, established or used by the
         President, or established or used by a Federal agency to obtain advice or
         recommendations. 133 The Federal advisory committee process should generally be used
         when an OIG wants to get advice or recommendations from a group of people who are
         not solely Federal employees and who have an expertise or perspective which can
         provide value to the decision making process.

         Since new media may provide a venue for open meetings and an avenue for public
         inspection of meeting records, an OIG’s new media use may trigger FACA. For example,
         crowdsourcing, such as that used by www.challenge.gov or www.ideascale.com, may
         inadvertently lead to a FACA issue. It is important to be aware of this because FACA’s
         administrative requirements are burdensome: If FACA applies, an agency is required,
         among other things, to have a charter, publish notification of meetings in the Federal
         Register, and make transcripts available to the public. 134

         Unless an OIG wishes to form an advisory committee under FACA, efforts should be
         made to ensure that the parties participating in meetings vary, that a consensus is not
         sought from participants, 135 and that the function of the group does not change to the
         point that an OIG begins to use the group as a source of advice or recommendations.136

         Records Management

         When collecting or maintaining information created by social media, an OIG should be
         aware of its recordkeeping responsibilities. All Federal agencies are required by law to
         manage their records. 137 The Federal Records Act of 1950 and its implementing
         regulations make each Federal agency responsible for determining which records need
         to be preserved. 138


133
    5 U.S.C. app. 2, § 3(2). A committee consisting solely of Federal employees is excluded from the definition.

134
    5 U.S.C. App. 2, §§ 9-11.

135
    The intent is to obtain information or viewpoints from individual attendees as opposed to advice, opinions or

recommendations from the group acting in a collective mode. The more static the group composition (i.e., the same attendees 

at each meeting), the more likely a FACA issue may arise. 

136
    See GSA, When is Federal Advisory Committee Act (FACA) Applicable?, available at 

http://www.gsa.gov/portal/content/100794.

137
    44 U.S.C. § 3301 (defining a record, in part, as “all books, papers, maps, photographs, machine readable materials, or other 

documentary materials, regardless of physical form or characteristics, made or received by an agency of the United States 

Government under Federal law or in connection with the transaction of public business and preserved or appropriate for 

preservation by that agency or its legitimate successor as evidence of the organization, functions, policies, decisions,

procedures, operations or other activities of the Government or because of the informational value of the data in them.”).

138
    36 C.F.R. § 1222.22. 


                                                               30

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         Whether something is a record that must be managed and preserved depends not on
         the form of the record, but on the content. 139 Not all electronic data will constitute a
         record that requires preservation, just as not all papers are records for records
         management purposes. National Archives and Records Administration (NARA) guidance
         on records management for social media provides a nonexhaustive list of questions that
         may help in determining a record’s status:

         •    Is the information unique and not available anywhere else?
         •    Does it contain evidence of an agency’s policies, business, mission, etc.?
         •    Is this tool being used in relation to the agency’s work?
         •    Is use of the tool authorized by the agency?
         •    Is there a business need for the information? 140

         NARA guidance indicates that if the answer to any of these questions is yes, then the
         content is likely to be a Federal record.141 However, content that is duplicated across
         multiple platforms or held elsewhere in an agency’s recordkeeping system may be
         considered a nonrecord. For example, NARA states that reposted news items that are
         captured and managed elsewhere may be considered nonrecords.142 A NARA draft
         bulletin issued in June 2013 states that content on social media is likely a Federal
         record. 143

         To manage records created through new media, NARA advises that it may be helpful to
         focus on three key areas: policy, records scheduling, and preservation. 144 A records
         management policy for new media should provide guidance on identifying what
         constitutes a record in a new media platform (including user-generated content) and
         how such records are to be captured and managed. Once an OIG has identified new
         media content as records, it must schedule the records or apply an existing appropriate
         disposition authority. In determining if an existing schedule or a new schedule is
         appropriate, an OIG should consider whether the new media platform provides
         enhanced processes, functionality, or other features, and for how long the record must
         be maintained. The ways in which an OIG chooses to preserve records created through
         the use of new media will vary based on the platform.

         Some of the options that NARA suggests to capture content include (1) saving all
         content with associated metadata; (2) using web crawling and software to store
139
    Guidance on Managing Records in Web 2.0/Social Media Platforms, NARA Bull. 2011-02, NAT’L ARCHIVES AND RECORDS ADMIN.
§ 4 (Oct. 10, 2010) [hereinafter NARA Bull. 2011-02]. This bulletin will expire on October 31, 2013.
140
    Id.
141
    Id.
142
    Id.
143
    NARA Bulletin 2013-XX, Guidance on Managing Social Media Records, NAT’L ARCHIVES AND RECORDS ADMIN. (June 26, 2013). This 

draft bulletin will supersede NARA Bull. 2011-02 but has not yet been finalized.

144
    NARA Bull. 2011-02 at § 6, supra note 139. 


                                                             31

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


         content; or (3) using web capture tools to create local versions of websites and
         migrating content to other formats.145 NARA’s latest guidance on preserving social
         media records provides a detailed list of available tools and software that could help
         Federal agencies in capturing social media content.146 This document also states that
         screenshots do not comply with NARA’s transfer guidance for permanent web content
         records, as they only create a picture of the content and do not preserve the content’s
         metadata and functionality. 147

         Even when records are created and maintained on a third-party platform, an OIG is still
         responsible for being able to identify and retrieve them. Yet an OIG’s responsibility to
         manage its new media records can be challenging when records reside with a third
         party. NARA advises agencies to include a records management clause when
         negotiating a terms of service (TOS) agreement.148 The TOS should underscore OIG’s
         responsibility to manage Federal records created through the use of the new media
         platform. NARA provides the following general clause:

                   The Agency acknowledges that use of contractor’s site and services may require
                   management of Federal records. Agency and user-generated content may meet
                   the definition of Federal records as determined by the agency. If the contractor
                   holds Federal records, the agency and contractor must manage Federal records
                   in accordance with all applicable records management laws and regulations,
                   including but not limited to the Federal Records Act (44 U.S.C. chs. 21, 29, 31, 33),
                   and regulations of the National Archives and Records Administration (NARA) at
                   36 CFR Chapter XI Subchapter B. Managing the records includes, but is not
                   limited to, secure storage, retrievability, and proper disposition of all federal
                   records including transfer of permanently valuable records to NARA in a format
                   and manner acceptable to NARA at the time of transfer. The agency is responsible
                   for ensuring that the contractor is compliant with applicable records management
                   laws and regulations through the life and termination of the contract.149

         NARA instructs that the use of this clause is “highly recommended,” but it is not
         required, and there may be other ways to comply with the law. The key is to address
         records management requirements in advance so that TOS terms can be negotiated
         upfront.




145
    Id. 

146
    White Paper on Best Practice for the Capture of Social Media Records, NAT’L ARCHIVES AND RECORDS ADMIN., at 10-20 (May 2013).

147
    Id. at 21.

148
    NARA Bull. 2011-02, at § 7 supra note 139. See infra Procurement and Terms of Service Agreements section for more 

information. 

149
    Id.

                                                               32

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


          Even if an OIG determines that content created through the use of new media does not
          constitute a Federal record, records management responsibilities still must be met.
          Specifically, electronic nonrecord materials must be readily identified and segregable
          from records, and nonrecord materials should be purged when no longer needed.150
          When considering using any new media, it is advisable to contact records management
          officers for their assistance in ensuring that all records management responsibilities are
          met.

          Human Resources

          Information and privacy issues may seem unrelated to human resources (HR), but in the
          world of social media they often connect. For example, when a hiring official prints out
          an applicant’s social media social profile pages as part of the application process, this
          raises Privacy Act and records management issues. This section cover such issues as
          recruiting and hiring; new media passwords; workplace discrimination, harassment and
          retaliation claims; and employee actions that may give rise to adverse actions, such as
          for social media activities that undermine or adversely affect an OIG’s mission. The
          following discussion briefly illustrates these areas of concern.

          Recruiting and Hiring

          Social media has become an increasingly popular way to recruit top talent to both
          government and the private sector. OIGs can use social networking websites to
          advertise jobs or answer questions about job postings on the Federal Government's
          official jobs website, USAjobs.gov. However, the recruiting and hiring process can bring
          problems if OIG staff are unaware of how to properly use social media. For example,
          some employers have started requesting applicants’ and current employees’ passwords
          to new media websites. At least four states have passed legislation making such
          requests illegal, and legislation is pending in other states.151 In the Federal context, this
          practice would not only be impracticable but also likely illegal.152

          We are not aware of a law that prohibits a hiring official from viewing an applicant’s
          publicly accessible new media accounts as part of the hiring process. Information
          posted online for public viewing may be perceived simply as repackaged public
          information. In fact, depending on how and when it is done, an evaluation of an
          applicant’s Internet footprint may be a useful component in determining his or her

150
    36 C.F.R. § 1222.16. 

151
    For a collection of state legislation that would prohibit requesting or requiring social networking passwords of applicants,

students, or employees, see Employer Access to Social Media Usernames and Passwords, 2012 Legislation, Nat’l Conference of

State Legislatures (Jan. 17, 2013), available at http://www.ncsl.org/issues-research/telecom/employer-access-to-social-media­
passwords.aspx.

152
    See supra First Amendment and Fourth Amendment sections.


                                                               33

                                   OFFICE OF INSPECTOR GENERAL

                                             Department of Homeland Security

                                              Washington, DC 20528 / www.oig.dhs.gov


          fitness for Federal employment. However, OIGs should be aware that viewing an
          applicant’s new media activity may lead to risks, including allegations of a Privacy Act
          violation or discrimination in the hiring process. The D.C. Circuit has held that merely
          performing an Internet search about an applicant would not constitute a Privacy Act
          violation, even if the searches were related to a person’s First Amendment activities.153
          According to the D.C. Circuit, a violation occurs when a record is created; for instance,
          when there is a print-out or written annotation.154

          A general social media search may reveal both factual and inaccurate information about
          a candidate. When information from social media websites is used to screen or openly
          eliminate a candidate from consideration, particularly if a decision to eliminate is based
          solely on the data found through social media content, an OIG is exposed to liability.
          For example, a hiring official’s viewing of an applicant’s social media profile may reveal
          that an applicant is pregnant, practices a certain religion, or graduated from college in a
          certain year. This is problematic if the applicant is not selected because the government
          cannot discriminate against an employee or applicant with respect to the terms,
          conditions, or privileges of employment on the basis of a protected class such as race,
          color, religion, sex, national origin, age, disability, marital status, or political
          affiliation. 155

          To defend against potential discrimination claims, an OIG manager who evaluates an
          applicant’s new media activities and declines to interview or hire an applicant based on
          those activities should carefully document the basis for the decision. OIGs should
          carefully consider their reasons for considering the new media content objectionable
          and whether those reasons raise concerns that are relevant to the hiring process. For
          instance, they should ask themselves whether they disagree with the content for
          legitimate work-related reasons, or rather just do not approve of the views expressed.
          Does the applicant’s speech indicate a suitability or background check issue? Does the
          speech cast doubt on whether the applicant would effectively promote the efficiency of
          OIG service? While answering these questions, it is important to remember an
          applicant’s rights under the Privacy Act, not to mention antidiscrimination laws. 156


153
    Gerlich v. Dept. of Justice, 828 F. Supp. 2d 284, 293-94 (D.D.C. 2011) (noting that, although “the Department of Justice’s use
of political or ideological affiliation in civil service hiring does not, in and of itself, violate the Privacy Act,” it is “inappropriate,
and could conceivably be the basis of some other claim”).
154
    Id.
155
    Discrimination on these bases is prohibited by one or more of the following statutes: 5 U.S.C. § 2302(b)(1);
29 U.S.C. §§ 206(d), 631, 633a, 791; and 42 U.S.C. § 2000e-17.
156
    Section (e)(7) of the Privacy Act forbids agencies from maintaining records about how individuals express their First
Amendment rights (subject to certain exceptions). See supra First Amendment section. Job applicants may file a claim for
damages if the making of such a record “had an adverse effect on them as required by subsection (g)(1)(D) of the Act," Albright
v. United States, 631 F.2d 915, 921 (D.C. Cir. 1980), and “'the agency acted in a manner which was intentional or willful.'" Id.
(quoting 5 U.S.C. § 552a(g)(4)). In the D.C. Circuit, incorporation into a system of records is not necessary to trigger the Privacy
Act. Id.

                                                                    34

                                 OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                             Washington, DC 20528 / www.oig.dhs.gov


          Finally, keep in mind that the sources considered in the hiring process may be
          considered agency records for Privacy Act, records management, and other purposes.
          Therefore, anyone authorized to use social media for hiring purposes should consult the
          OIG’s privacy officer, counsel, and recordkeeping officer regarding potentially creating a
          record that is retrievable under the Privacy Act.

          Workplace Discrimination Claims

          In addition to potential pitfalls in the recruiting and hiring sphere, viewing the new
          media activity of current employees may lead to claims of discrimination, so OIGs should
          caution supervisors about the risks. Supervisors who share a social network with
          employees should not probe to find certain information through social media. For
          example, a supervisor who is connected on a social media network with an employee
          who posts about his or her serious health conditions inadvertently may learn about that
          employee’s health. This is lawful. 157 However, the supervisor should not probe into
          health issues or conduct an Internet search on the employee in a way that likely will
          reveal genetic information to avoid claims of discrimination based on the Genetic
          Information Nondiscrimination Act of 2008, as amended. 158 It may be difficult for an
          OIG to argue successfully that it did not take action against an employee based on illegal
          grounds, if it is shown during discovery that a deciding official has viewed an employee’s
          new media content purposefully to find such information.

          Even if supervisors or management do not actively search new media for information
          about employees, they may become aware of information about an employee
          inadvertently through other employees’ social media networks. Coworkers linked on
          social media platforms may print each other’s postings and may choose to share them
          with management. OIGs should make sure that employees know to involve HR
          professionals and counsel regarding any allegation made involving social media.

          Harassment and Hostile Work Environment Claims

          A form of employment discrimination that violates Title VII of the Civil Rights Act of 1964
          (Title VII), as amended,159 the Age Discrimination in Employment Act of 1967, as
          amended,160 and the Americans with Disabilities Act of 1990, as amended,161
          harassment is unwelcome conduct that is based on race, color, religion, sex (including
          pregnancy), national origin, age, disability, or genetic information. Since 1986,

157
    See 29 C.F.R. § 1635.8(b)(1)(ii)(D). This social media situation is explicitly covered under the “inadvertent acquisition of

genetic information” exception to the prohibition on requesting, requiring, or purchasing genetic information. 

158
    42 USCS § 2000ff-1, 29 C.F.R. § 1635.8(a).

159
    42 U.S.C. §§ 2000e, et seq.

160
    29 U.S.C. §§ 621-34.

161
    42 U.S.C. §§ 12101, et. seq.


                                                                 35

                                 OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          sufficiently “severe or pervasive” workplace harassment that “alter[s] the conditions of
          [the victim's] employment and create[s] an abusive working environment” has been
          recognized as an actionable claim against an employer under Title VII.162 Known as a
          “hostile work environment” claim,163 it is evaluated by “looking at all the circumstances”
          to determine whether the conduct was sufficiently severe or pervasive. 164 A single
          incident of harassment generally does not substantiate a hostile work environment.165

          OIGs may not have considered whether social media activities could contribute to a
          hostile work environment claim, perhaps assuming that an abusive working
          environment must occur at the office to be actionable. But courts are examining
          whether the totality of the circumstances test may contemplate harassment that occurs
          after hours or away from the office. Federal circuit courts are split on this issue, with
          the First, Second, Seventh, and Eighth Circuit Courts of Appeals indicating that
          harassment conducted outside the workplace counts towards the totality of the
          circumstances for purposes of a hostile work environment claim.166 Courts may
          consider social media harassment as part of the totality of the circumstances test.167

          Arguably, as the concept of the federal workplace expands to include more teleworking,
          professional and personal boundaries increasingly blur, and employees increasingly use
          social media both for personal and professional purposes, an OIG’s potential liability
          under Title VII may grow. This is an area of law to follow.

          Retaliation Claims

          Retaliation against an employee or applicant for making a protected disclosure is
          prohibited by Federal law. 168 In addition, the Federal Government cannot retaliate
          against an employee or applicant because that individual exercises his or her rights
          under any of the Federal antidiscrimination or whistleblower protection laws. 169 If an

162
    Meritor Sav. Bank v. Vinson, 477 U.S. 57, 64-67 (1986).
163
    Id. at 66.
164
    Harris v. Forklift Systems, Inc., 510 U.S. 17, 23 (1993).
165
    Faragher v. City of Boca Raton, 524 U.S. 775, 778 (1998) (“[S]imple teasing,’ offhand comments, and isolated incidents
(unless extremely serious) will not amount to discriminatory changes in the ‘terms and conditions’ of employment.’” (quoting
Oncale v. Sundowner Offshore Serv., Inc., 523 U.S. 75, 81-82 (1998))).
166
    See Jeremy Gelms, High-Tech Harassment: Employer Liability Under Title VII for Employee Social Media Misconduct, 87
Wash. L. Rev. 249, 259 (2012) (citing Crowley v. L.L. Bean, Inc., 303 F.3d 387, 409–10 (1st Cir. 2002); Ferris v. Delta Airlines, Inc.,
277 F.3d 128, 135 (2d Cir. 2001); Lapka v. Chertoff, 517 F.3d 974, 983 (7th Cir. 2008); Doe v. Oberweis Dairy, 456 F.3d 704, 715 

(7th Cir. 2006); Dowd v. United Steelworkers of Am., 253 F.3d 1093, 1102 (8th Cir. 2001)).

167
    Id. at 271 (citing Blakey v. Continental Airlines, Inc., 751 A.2d 538 (2000) (“Although the electronic bulletin board may not 

have a physical location [at the office] it may nonetheless have been so closely related to the workplace environment . . . that a 

continuation of harassment on the forum should be regarded as part of the workplace.”); Amira-Jabbar v. Travel Services, Inc., 

726 F. Supp. 2d 77 (2010) (social media harassment sufficiently work-related to be considered among all the circumstances)). 

168
    5 U.S.C. § 2302(b)(8). 

169
    5 U.S.C. § 2302(b)(9). 


                                                                 36

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov


         OIG learns about an employee’s complaint of retaliation, either by monitoring the
         employee’s social media activity on a government computer or through a social network
         that another OIG employee shares with the aggrieved employee, the OIG may be
         vulnerable to a retaliation claim if the employee later suffers an adverse employment
         decision. The Whistleblower Protection Enhancement Act of 2012 170 recently expanded
         its protection of Federal employees from reprisal if they disclose misconduct to
         coworkers or supervisors, disclose the consequences of a policy decision, or, under
         certain conditions, blow the whistle while carrying out their job duties – even if they are
         not the first person to disclose misconduct.171 Therefore, a tweet about retaliation or
         even a message through a social media account to a supervisor or coworker, made on or
         off duty, may constitute a protected disclosure under the Whistleblower Protection Act.

         Taking Adverse Action

         At some point, an OIG may learn through social media that an employee has violated
         the law or OIG policy. For instance, an employee may have disclosed nonpublic
         information or posted photos from a hockey game that the employee attended while on
         sick leave. 172 Or perhaps an employee posted or tweeted excessively while on duty, or
         violated another workplace policy involving social media. For whatever reason, an OIG
         may wish to discipline the employee based on information gleaned from social media.

         Federal agencies are starting to include social media activities in disciplinary actions, but
         it is wise to be cautious. 173 Federal law permits an agency to take adverse action against
         an employee “only for such cause as will promote the efficiency of the service,”
         including circumstances involving off-duty activities. 174 Thus, it is important that an OIG
         establish clear, predetermined standards as to when private misconduct in connection
         with the use of social media rises to the level of misconduct that adversely affects an
         OIG’s efficiency of service.

         Since “agenc[ies] [have] the burden of proof to establish that [an] employee’s discipline
         will ‘promote the efficiency of the service,’” 175 OIG policies should give examples of
         actions considered to be misuse of social media. In addition, they should spell out the
         discipline that will be administered in response to such actions and how such discipline
         promotes the efficiency of the OIG service. When defining social media misconduct, it is

170
    Pub. L. No. 112-199, 126 Stat. 1465 (2012).

171
    Id. 5 U.S.C. § 2302(f).

172
    See Hunter v. Dep’t of Navy, 2011 Merit Systems Protection Board (MSPB) Lexis 3159 (May 20, 2011) (allegation that Navy 

police officer appellant called in sick but posted information on Facebook showing that he had watched the Superbowl).

173
    See Vidal v. Army, 2011 MSPB Lexis 4788 (Aug. 5, 2011) (involving agency removal of employee because of alleged anxiety-

producing comment on Facebook that was reported at work); Shannon v. VA, 2013 MSBP Lexis 563 (Jan. 31, 2013) (affirming 

agency decision to remove employee for exchanging personal Facebook messages with veteran resident, in violation of policy). 

174
    5 U.S.C. § 7513(a). 

175
    Doe v. Dep’t of Justice, 565 F.3d 1375, 1379 (Fed. Cir. 2009).


                                                             37

                                 OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          critical that OIGs include only actions that would impact job performance directly and in
          obvious ways. 176 That said, the Merit Systems Protection Board and the Federal Circuit
          generally have held that off-duty activities can lead to discipline when they could cause
          the public or coworkers to question or lose confidence in the Federal agency
          involved.177

          One of the factors making social media so complicated is that it requires employees to
          decide among apparently simple options, some of which may pose problems. For
          example, regarding employment status, employees may choose to identify themselves
          on their personal social media websites as employees of specific OIGs, generically as a
          Federal employee or by profession, or not list their employment status at all.
          Employees who identify their specific workplace open themselves up to potential ethics
          and Hatch Act violations, if their posts could be construed as official endorsements or
          improper political activity. Some senior or publicly known employees may be so well-
          known that they cannot successfully hide their employer and position, practically
          eliminating the chances of successfully maintaining a purely “personal” social media
          account. As for privacy settings, employees may choose to restrict access to certain
          people or groups, or open everything to anyone who wishes to see.

          OIGs must create a social media policy that considers these and other factors in
          assessing the risks that an employee’s potentially problematic speech or content may
          pose, keeping in mind that if required to defend that policy in a personnel action, the
          OIG will need to establish that the actions constituting the violation “could rationally be
          considered likely to discredit” the OIG.178

          In short, an OIG’s adoption of standards that reflect a clear nexus between misuse of
          social media and efficiency of service to the OIG will provide a uniform basis for
          evaluating employee conduct. Furthermore, including these standards in OIG policy
          (along with examples of each) will put employees on notice of prohibited practices in
          connection with social media use.

          In summary, new media is an effective tool for both employers and employees when
          used properly, but both groups must be aware of the potential pitfalls. Strong employer
176
    Id. at 1380-81 (citing Brown v. Dep’t of the Navy, 229 F.3d 1356, 1360 (Fed. Cir. 2000) and Bonet v. U.S. Postal Serv., 661 F.2d
1071, 1078 (5th Cir. 1981) (noting that it is insufficient to rely on internal regulations that generally proscribe certain employee
conduct (e.g., ”immoral” or “disgraceful” conduct) as proof of the required nexus between off-duty dishonesty/immorality and
the efficiency of the service)).
177
    E.g., Stump v. Dep’t of Transp., 761 F.2d 680, 681-82 (Fed. Cir. 1985) (upheld MSPB decision sustaining removal of employee
for off-duty cocaine use).
178
    Major v. Hampton, 413 F. Supp. 66, 67 (E.D. La. 1976). When determining if a particular action would satisfy this test, OIGs
must consider “the nature of the acts, the circumspection or notoriety with which they are performed, and the atmosphere of
the community in which they take place.” Id. at 69. Note that the third consideration promoted by the court is an allusion to
the obscenity test in Miller v. California, 413 U.S. 15, 24 (1973), which dictates that obscenity should be defined according to
“contemporary community standards.”

                                                                38

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         guidance and circumspect employee activity will go a long way in preventing damage to
         the employer-employee relationship.

         Ethics

         One area with potential to raise many HR issues is the field of ethics. Because new
         media allows more opportunities for employees to interact and express themselves, it
         presents a potential minefield of ethics violations. This section covers impartiality and
         endorsements; use of government resources; outside activities; nondisclosure of
         nonpublic information; the Anti-Lobbying Act; the Hatch Act; and appropriations
         restrictions.

         Ethics Overview

         All Federal employees must comply with Federal ethics laws. 179 The standards for
         ethical conduct cover the basic ethical obligations of public service, including rules
         regarding gifts from outside sources and between employees, conflicting financial
         interests, impartiality in performing official duties, outside employment and activities,
         post-employment, and misuse of position.180 Based on 14 principles, the standards are
         designed to instill public faith in public servants. They apply to employee
         communications and conduct regardless of the medium, so it follows that they apply to
         the use of new media.

         Overview of Impartiality and Endorsements

         New media, and social media in particular, offers OIGs in an official capacity and
         employees in an unofficial, off-duty capacity the opportunity to “endorse” people,
         enterprises, and ideas. For example, Twitter accounts allow users to retweet messages,
         which may imply an endorsement of the message.181 Facebook allows users to “like”
         other users’ pages, posts, and links. And LinkedIn allows users to recommend or
         “endorse” others’ work and expertise. Merely subscribing to or “following” an
         individual or organization’s social media site could appear to be an endorsement.

         Employees and their employing OIGs should be aware that Federal ethics rules require
         impartiality and prohibit employees from endorsing products, services, or enterprises in
         the performance of their official duties or while engaging in activity that creates the

179
    Most of the ethics laws are found in Sections 202 to 209 of Title 18 of the U.S. Code and in Exec. Order No. 12,674, 54 Fed.

Reg. 15,159 (Apr. 12, 1989), modified by Exec. Order No. 12,731, 55 Fed. Reg. 42,547 (Oct. 17, 1990). The executive order is 

implemented by regulations at 5 C.F.R. § 2635. 

180
    5 C.F.R. Part 2635, Standards of Ethical Conduct for Employees of the Executive Branch.

181
    An OIG may state on its profile that “retweet does not mean endorsement,” as other Twitter users do, but tweeting from an 

official account nonetheless may create the impression of endorsement.


                                                              39

                                 OFFICE OF INSPECTOR GENERAL

                                     Department of Homeland Security

                                     Washington, DC 20528 / www.oig.dhs.gov


          appearance that the endorsement is somehow related to their official position.
          Specifically, the rules require employees to—

          •	 “[A]ct impartially and not give preferential treatment” to private organizations or
             individuals; 182

          •	 Try to “avoid any actions creating the appearance” that they are violating laws or
             ethical standards; 183

          •	 Not use their public office to endorse “any product, service, or enterprise,”184 except
             when an exception applies; 185 and

          •	 Not use their public position or title or any authority associated with their public
             office “in a manner that could reasonably be construed to imply” that the
             government endorses their personal activities or those of another.186

          Impartiality and Endorsements – Unofficial Employee Use

          Based on the ethics rules on impartiality and endorsement, an employee may list his or
          her OIG position on a professional social media networking site but should be cautious
          about making recommendations in connection with the account. An employee is
          prohibited from recommending companies, products, or services in an official capacity
          but is permitted to make recommendations in a purely personal capacity. The safest
          option is to avoid such endorsements altogether. However, an employee identified by
          his official title may write a recommendation for or “endorse” someone on LinkedIn
          under certain circumstances. An employee may make a recommendation in his official
          capacity based upon his personal knowledge of the ability or character of someone with
          whom he has dealt in the course of Federal employment or whom he is recommending
          for Federal employment. 187 Writing a recommendation, in an official capacity, on social
          media for a government contractor would likely violate the Standards of Conduct.

          Another opportunity to run into an endorsement pitfall concerns fundraisers through
          social media, sometimes referred to as “social fundraisers.” An employee may engage
          in a fundraising event not sponsored by the government, but may not allow his or her
          title, position, or any authority connected with OIG to further the fundraiser.188 Further,

182
    5 C.F.R. § 2635.101(b)(8).
183
    Id. at § 2635.101(b)(14).
184
    Id. at § 2635.702.
185
    Id. at § 2635.702(c).
186
    Id. at § 2635.702(b).
187
    Id.
188
    Id. at § 2635.808(c).

                                                      40

                                 OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          an employee engaging in fundraising in a personal capacity via social media may not
          solicit funds or other support from a subordinate or prohibited source.

          Impartiality and Endorsements – Official OIG Use

          With respect to official OIG social media activity, OIGs should have a policy governing
          the entities that the OIG “likes,” “follows,” or “recommends.” An OIG social media
          policy should inform employees of their ethical duties not to endorse private products,
          services, or programs in their official capacity, and instruct them not to associate their
          personal opinions with their public position. OIGs should monitor the activity of
          employees in charge of OIG official social media platforms to ensure compliance.

          Generally, in the absence of statutory authority to endorse certain products, programs,
          or services, an OIG may choose to like, endorse, or follow only other governmental
          agencies or officials to avoid the appearance of improper endorsements.189 Just
          accepting a “friend” or other social media connection request from a public user may be
          fine, but the OIG should not proactively “friend,” “follow,” or “like” public users. 190 An
          OIG employee using social media in an official capacity also should avoid direct
          endorsements. For example, the employee should not post a statement saying that the
          OIG uses a particular provider because it is “the best platform for public
          communication.” However, the employee may post a statement such as "OIG just
          negotiated a terms of service agreement with [social media provider], which will provide
          OIG with a platform to communicate with the public," which is a statement of fact and
          not an opinion or endorsement.

          Sometimes, however, an OIG’s mission might require following news of state and local
          governments, or nonprofit organizations on Twitter or other social media platforms. For
          example, an OIG that oversees a grant-making agency or is involved in emergency
          preparedness may justify following certain relevant entities. If an OIG’s mission could
          benefit from following major news outlets, it is advisable for the OIG to follow all major
          networks rather than one so that no preference is indicated.

          OIGs should not allow third-party social media providers to use their logos or seals, nor
          should OIGs endorse or promote non-Federal logos or seals. Doing so may violate
          Federal contracting regulations requiring the government to treat all potential
          contractors with impartiality to allow for fair competition.191 It also may violate the

189
    For example, 42 U.S.C. § 6294a requires the Department of Energy and the Environmental Protection Agency to endorse 

specific products and services.

190
    CIO Council Privacy Best Practices, #4(b)(iii), supra, note 83. The CIO Council suggests that a statement be included in the 

PIA and on the social media account page to inform users that the acceptance of a friend or other social media connection 

request does not indicate endorsement.

191
    48 C.F.R. § 3.101-1. 


                                                                41

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov



          general ethical principle requiring employees to be impartial and avoid giving
          preferential treatment. 192 One way to address potential problems is to use a disclaimer
          on all OIG-sponsored social media platforms stating that the OIG does not endorse any
          nongovernment websites, companies, or apps. An OIG also may wish to provide a link
          on its website as to why the OIG uses certain social media apps, and encourage readers
          to suggest other products. Finally, if links to an OIG’s third-party websites are provided,
          the OIG should consider adding a banner or disclaimer advising individuals that they are
          leaving the OIG website and entering the third-party website, and the OIG does not
          endorse any commercial products that may be advertised with the website.193 OGE’s
          online disclaimer contains the following information regarding endorsements:

                    Reference in this site to any specific commercial product, process, or service, or
                    the use of any trade, firm or corporation name is for the information and
                    convenience of the public, and does not constitute endorsement,
                    recommendation, or favoring by the Department of Justice.

                    OGE does not control or guarantee the accuracy, relevance, timeliness, or
                    completeness of information contained on a linked website; does not endorse the
                    organizations sponsoring linked websites; does not endorse the views they
                    express or the products/services they offer. . . . 194

          Employee Use of Government Resources

          Federal employees always have a duty to protect and conserve Federal resources and to
          put forth an honest effort while on duty. 195 However, most OIGs have a “limited use
          policy” that allows employees to use government resources, including government
          computers and electronic devices, for personal purposes. This use is restricted, as the
          name implies, and requires that employees comply with legal and policy guidelines.
          Typical restrictions are that use should occur at times that do not interfere with an
          employee’s duties, should not trigger more than nominal increases in cost, and should
          not violate applicable laws or regulations. An employee who spends two hours a day
          updating social networking websites in a personal capacity on a government electronic
          device would be violating these rules.




192
    5 C.F.R. § 2635.101(b)(8). 

193
    The banner should also state that the OIG’s privacy policy does not apply on third-party websites and applications.

194
    See OGE Disclaimer of Liability, supra note 110. 

195
    5 C.F.R. §§ 2635.101(b)(5), (b)(9), 2635.704, 2635.705.


                                                               42

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov



         Restrictions on Outside Activities

         Federal ethics regulations dictate that an employee’s outside employment and activities
         may not conflict with their official duties. 196 Supplemental agency ethics regulations, for
         agencies that have them, often include agency-specific restrictions on outside
         activities. 197 So, for example, while maintaining a personal blog is allowable, employees
         who choose to list their position or title should only cite it as one of several biographical
         details, and include a disclaimer stating that the views presented represent the
         blogger’s personal views and not those of the OIG. Also, an employee should not blog
         or conduct other social media activities from their government computers, beyond that
         allowed by a “de minimis” use policy.

         Nondisclosure of Nonpublic Information

         Federal ethics rules forbid Federal employees from using, or allowing someone to use,
         nonpublic Government information to further their own private interests or the private
         interests of others. 198 As defined by ethics regulations, nonpublic information is
         information that an employee gains by reason of Federal employment and that he or
         she knows or reasonably should know has not been made available to the general
         public199 It includes information that is exempt from disclosure under the FOIA, or
         otherwise protected by EO or regulation, and information designated confidential by an
         agency. 200 OIG employees need to be particularly careful with social media, where it is
         easy to click and disclose but practically impossible to retrieve and delete. Depending
         on the nature of the information, disclosing via social media might violate not just the
         Standards of Conduct, but also various Federal statutes.

         Prohibition of Lobbying

         Social media platforms are effective ways to get a particular message across and
         communicate ideas to those who are unreachable through traditional methods.
         However, Federal agencies have a duty of political impartiality and must be
         conscientious of the Anti-Lobbying Act, which prohibits Federal funds from being used
         to directly or indirectly lobby Congress or any government official. 201


196
    Id. at § 2635.802. 

197
    OGE’s website provides links to all supplemental agency ethics regulations. See Agency Supplemental Regulations, OFF. OF

GOV. ETHICS, http://www.oge.gov/Laws-and-Regulations/Agency-Supplemental-Regulations/Agency-Supplemental-Regulations/ 

(last visited Aug. 16, 2013). 

198
    5 C.F.R. § 2635.703. 

199
    5 C.F.R. §2635.703(b). 

200
    5 U.S.C. § 552.

201
    18 U.S.C. § 1913.


                                                            43

                                 OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          Anti-Lobbying Act violations can occur inadvertently through official or unofficial new
          media use. Employees using new media to encourage the public to pressure Congress
          to support any legislation, law, or policy—whether advocating an agency position or
          not—may be found to engage in “grass roots lobbying.” These activities may violate the
          Anti-Lobbying Act if done on official time, since Federal salaries come from appropriated
          funds. 202

          To combat the risk of inappropriate lobbying, OIGs should train employees regarding
          this issue. Additionally, OIGs should develop understanding of what constitutes
          prohibited lobbying activity in the realm of social media and provide employees with
          adequate training on the basic principles of the Anti-Lobbying Act. As with many other
          areas of the law, staying abreast of Anti-Lobbying Act developments as applied to new
          media will greatly help to mitigate potential violations.

          Prohibition of Partisan Activities

          OIGs need to be aware of the Hatch Act’s ban on Federal employees’ partisan political
          activities. 203 According to the Office of Special Counsel’s frequently asked questions
          (FAQ) on social media and the Hatch Act, the basics for “less restricted” employees are
          as follows: 204

          •	 If a Federal employee has listed his official title on his Facebook profile, he or she
             may also fill in the "political views" field.

          •	 Federal employees are prohibited from advocating for or against a political party,
             partisan political group, or candidate for partisan public office through social media
             while on duty or in the workplace. However, doing so off duty and away from the
             Federal workplace would not violate the Hatch Act, as long as employees do not
             refer to their official titles or positions.

          •	 Employees may not solicit, accept, or receive political contributions, or suggest or
             ask anyone to contribute to a political party, partisan political candidate, or partisan
             political group. This restriction applies in the social media world.

          •	 Employees should not provide links to the contribution page of any of those entities'
             websites.



202
    See Application of 18 U.S.C. § 1913 to “Grass Roots” Lobbying by Union Representatives, 29 Op. O.L.C. 1 (Nov. 23, 2005).

203
    5 U.S.C. §§ 7321-26.

204
     Frequently Asked Questions Regarding Social Media and the Hatch Act, U.S. OFF. OF SPECIAL COUNSEL (Apr. 4, 2012), available at 

http://www.osc.gov/documents/hatchact/federal/Social%20Media%20and%20the%20Hatch%20Act%202012.pdf. 


                                                                44

                                 OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          •	 Supervisors sharing social media networks with subordinates generally may
             advocate for or against a political party, partisan political group, or candidate for
             partisan public office via social media but may not direct any message toward a
             specific subordinate employee or to a subset of friends that includes subordinates.

          •	 Employees are not liable for their social media contacts’ speech but should not
             “like,” “share,” or “retweet” speech that the employee would be prohibited from
             stating himself.

          •	 Official social media accounts must be politically neutral. In other words, employees
             managing the OIG’s accounts may not “like” or “follow” political parties, or include
             information on such groups.

          Some Appropriations Restrictions

          Some OIGs have held digitized “town halls,” which allow an Inspector General or senior
          staff to address questions in real time. Others use blogs, video and audio sharing
          platforms, and other social media to push out their message. Among the benefits of
          engaging social media in this way is that an OIG can control its message and respond to
          any negative publicity immediately. When pushing out a message, however, OIGs need
          to be careful to avoid propaganda. In the past 50 years, GAO has noted that one of the
          main targets of the publicity or propaganda prohibition is when the “obvious purpose is
          ‘self-aggrandizement’ or ‘puffery.’”205 By focusing on legitimate informational
          activities,206 an OIG fulfills its duty to inform the public regarding its policies, while
          avoiding puffery. 207 Using OIG resources in explanation and defense of the OIG’s
          policies—even in the absence of specific direction or a mandate—is allowable.208 GAO
          has consistently held that public officials may report on their activities and programs,
          may justify those policies to the public, and may rebut attacks on those policies.209

205
    E.g., Application for Anti-Lobbying Restrictions to HUD Report Losing Ground, B-284226.2, 2000 WL 1193462 (Comp. Gen.
Aug. 17, 2000); Medicare Prescription Drug, Improvement, and Modernization Act of 2003, B-302504, 2004 WL 523435 (Comp.
Gen. Mar. 10, 2004). GAO has defined self-aggrandizement as “publicity of a nature tending to emphasize the importance of
the OIG or activity in question.” Restriction Violations on the Use of Appropriations in a Press Release by the Office of Personal
Management, B-212069 (Comp. Gen. Oct. 6, 1983) (quoting 31 Comp. Gen. 311 (1952) (GAO’s first decision interpreting the
publicity or propaganda prohibition). For example, an OIG would be prohibited from using appropriated funds to issue a press
release to persuade the public as to its importance as a government OIG but not prohibited from providing legitimate
information, such as on pending legislation. Id. (finding OPM press releases informing the public of the Administration's
position on pending legislation unobjectionable).
206
    Benjamin S. Rosenthal, House of Representatives, B-184648, 1975 WL 9457 (Comp. Gen. Dec. 3, 1975) (discussing an OIG’s
“legitimate interest in communicating with the public”).
207
    Medicare Prescription Drug, Improvement, and Modernization Act of 2003, B-302504, 2004 WL 523435 (Comp. Gen. Mar.
10, 2004) (citing B-130961, Oct. 26, 1972) (stating that “OIGs have a general responsibility, even in the absence of specific
direction, to inform the public of the OIG's policies”).
208
    Id.
209
    Id. (citing B-223098, Oct. 10, 1986) (stating that “public officials may report on the activities and programs of their OIGs, may
justify those policies to the public, and may rebut attacks on those policies”).

                                                                45

                               OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov



         Procurement and Terms of Service Agreements

         Even though many social media services are free, OIGs still need to be aware of
         procurement issues, whether at the initial stage of choosing a provider or negotiating a
         TOS or user agreement. The key is to negotiate a TOS upfront that considers all legal,
         privacy, and information security requirements. This section addresses no-cost
         agreements, and issues that TOS agreements raise, including potentially problematic
         clauses on indemnification, choice of law and forum, confidentiality, and advertising.

         No-Cost Agreements

         The Competition in Contracting Act of 1984, as amended, applies to Federal agency
         procurements for property or services, and generally requires full and open
         competition. 210 However, since much of the new media available today is provided for
         free, procurements are often set up as no-cost agreements. A no-cost agreement is a
         “formal arrangement between a government entity and a vendor under which the
         government makes no monetary payment for the vendor’s performance.”211 GAO
         guidance advises that determining whether competition requirements apply to a
         no-cost agreement depends on the agency involved. 212 GAO ultimately concluded that
         the Competition in Contracting Act of 1984 does not apply to no-cost agreements of
         military agencies but does apply to no-cost agreements of civilian agencies.213

         No-cost agreements do not violate the Antideficiency Act because “[s]ervices performed
         pursuant to a formal contract, in which the OIG has no financial obligation and the
         contractor has no expectation of payment from the government, are not ‘voluntary’
         within the meaning of the prohibition.” 214 Therefore, as long as an OIG enters into a
         formal no-cost agreement with a social media provider that clearly states that the OIG
         has no financial obligation and that the social media provider has no expectation of
         payment from the OIG, the no-cost agreement will not violate the Antideficiency Act.




210
    41 U.S.C. § 3301.

211
    No-Cost Contracts for Event Planning Services, B-308968, 2007 WL 4226075 (Comp. Gen. Nov. 27, 2007) (citing General 

Services Administration and Real Estate Brokers’ Commissions, B-302-811 (Comp. Gen. July 12, 2004)).

212
    GAO, No-Cost Contracts: Frequently Asked Questions, GOV’T ACCOUNTABILITY OFF. (Mar. 13, 2008), #5, available at

http://www.gao.gov/special.pubs/appforum2008/nocostcontracts.pdf [hereinafter GAO FAQ].

213
    Id. 

214
    No-Cost Contracts for Event Planning Services, B-308968, 2007 WL 4226075 (Comp. Gen. Nov. 27, 2007). The Antideficiency 

Act prohibits voluntary services because they may generate claims for compensation that may exceed an OIG’s appropriations. 

See 31 U.S.C. § 1342 (“An officer or employee of the United States Government . . . may not accept voluntary services . . . or 

employ personal services exceeding that authorized by law except for emergencies involving the safety of human life or the 

protection of property.”).


                                                              46

                               OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         The Federal Acquisition Regulation (FAR) does not apply to acquisitions of free media
         services, whether by a defense or civilian agency, because it applies only to government
         acquisition of supplies or services with appropriated funds. 215 As with any other
         government expenditure, though, if the new media platform will require appropriated
         funds, the FAR applies to that procurement.

         User Agreements and Terms of Service

         OIGs should not sign a boilerplate TOS agreement with a new media provider but rather
         should negotiate the terms. OLC has determined that the standard of consent to an
         online TOS is the same as for traditional principles of contract law. 216 As a result,
         consent to an online TOS “turns on whether the web user had reasonable notice of and
         manifested assent to the online agreement.”217 OIG employees need to read the
         agreements, whether they are “clickwrap” or “browsewrap,” 218 and avoid accepting
         standard “click-through” user agreements on most new media websites, as they usually
         contain provisions that are problematic for the Federal Government and may lead to a
         violation of the law. 219

         In 2009, the General Services Administration (GSA) began negotiating TOS agreements
         with various new media platforms for Federal government use. GSA publishes on
         www.howto.gov/tos a list of Federal-compatible TOS agreements that address many of
         the major legal issues (e.g., indemnification, liability, choice of law, advertising) that may
         arise. Although it may be tempting to use these templates as-is, OIG staff should review
         them for their own needs and negotiate with the provider as necessary.

         When using www.howto.gov/tos to begin the process of enrolling in a new media
         program, OIGs should be aware that GSA generates an email to the parent OIG’s point
         of contact for approval, if applicable. Some parent agencies may try to prevent an OIG
         from starting and maintaining its own account. An OIG seeking to utilize a new media
         platform will need to work with the parent OIG point of contact to explain that (whether
         the parent OIG has its own account with the new media provider in question or not) the
         OIG account will be separate from any parent agency account. An OIG might need to



215
    48 C.F.R. §§ 1.104, 2.101; See also Fidelity and Casualty Company of New York, B-281281, 1999 WL 22661 (Comp. Gen. Jan. 

21, 1999); GAO FAQ, supra note 212, at #5. 

216
    The Anti-Deficiency Act Implications of Consent by Government Employees to Online Terms of Service Agreements Containing

Open-Ended Indemnification Clauses, OFF. OF LEGAL COUNSEL (Mar. 27, 2012), available at http://www.justice.gov/olc/2012/aag­
ada-impls-of-consent-by-govt-empls.pdf.

217
    Id.
218
    “Clickwrap” agreements require the user to take an affirmative action, such as checking a box or clicking an “I accept” or

“I agree” button. “Browsewrap” agreements are passive and do not require the user to give express consent.

219
    Note, however, that some social media providers have changed their basic TOS to be compatible with Federal OIG 

requirements. 


                                                             47

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         clarify that, due to independence requirements, the TOS agreement will be reviewed
         and approved by OIG counsel, rather than agency counsel.

         Indemnification Clauses

         Service providers generally include indemnification clauses in TOS agreements. A
         standard indemnification clause might state that, if liability arises connected to the
         social media content or activities, the account holder must indemnify and hold the
         provider harmless from and against all damages, losses, and expenses of any kind. It
         might include reasonable legal fees and costs.

         Agreeing to such an open-ended, unrestricted indemnification clause would violate the
         Antideficiency Act because employees may not “make or authorize an expenditure or
         obligation exceeding an amount available in an appropriation or fund for the
         expenditure or obligation.” 220 The OLC determined that an employee with actual
         authority to contract on behalf of the government violates the Antideficiency Act by
         entering into such an obligation, whereas an employee without contracting authority
         does not.221 This applies whether the service is free or fee-based.

         To remedy any violations, GSA has negotiated indemnification clauses in TOS
         agreements with numerous providers. Here is one example:

                   3. (b) Indemnity. The indemnity provision in the Terms of Use is hereby deleted
                   in its entirety and replaced with the following:

                   Disclaimer. You agree that your account on the [social media provider] service
                   will serve as an additional distribution channel for government information, but
                   in no event will serve or be represented as the official site or homepage for
                   Government Entity. To help convey this message, you will maintain the following
                   message in a prominent location on your [social media provider] page: “If you're
                   looking for the official source of information about [Government Entity], please
                   visit our homepage at [URL Link].” 222

         GSA’s model TOS includes the following indemnification language:


220
    31 U.S.C. § 1341(a)(1)(A).
221
    The Anti-Deficiency Act Implications of Consent by Government Employees to Online Terms of Service Agreements Containing
Open-Ended Indemnification Clauses, OFF. OF LEGAL COUNSEL, (Mar. 27, 2012), available at http://www.justice.gov/olc/2012/aag­
ada-impls-of-consent-by-govt-empls.pdf. If an employee without the authority to contract on behalf of the agency signs such a
TOS, however, OLC determined that that would not violate the Antideficiency Act. According to FAR provision 48 C.F.R. § 4.101,
only contracting officers have the authority to bind an agency to a contract.
222
    Negotiated Terms of Service Agreements, GEN. SERV. ADMIN., http://www.howto.gov/web-content/resources/tools/terms-of­
service-agreements/negotiated-terms-of-service-agreements (last visited Aug. 16, 2013) [hereinafter GSA TOS Amendments].

                                                             48

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov


                   Indemnification, Liability, Statute of Limitations: Any provisions in the TOS
                   related to indemnification and filing deadlines are hereby waived, and shall not
                   apply except to the extent expressly authorized by law. Liability for any breach of
                   the TOS as modified by this Amendment, or any claim arising from the TOS as
                   modified by this Amendment, shall be determined under the Federal Tort Claims
                   Act (FTCA), or other governing Federal authority. Federal Statute of Limitations
                   provisions shall apply to any breach or claim.

         The following indemnification language may be added to supplement the language
         contained in GSA’s model TOS:

                   As an OIG of the United States Government, [OIG] is self-insured. Pursuant to the
                   Federal Tort Claims Act (FTCA), 28 U.S.C. §§ 1346(b), 2671-80, the exclusive
                   remedy for any negligent or wrongful act or omission on the part of its
                   employees, when acting within the scope of their employment, shall be an action
                   against the United States under the FTCA. As such, [OIG] acknowledges that
                   liability for any acts or omissions on the part of its employees shall be determined
                   pursuant to the FTCA.

         By negotiating with providers for the deletion of open-ended indemnification language,
         OIGs can ensure that TOS agreements they enter into with social media providers
         comply with the Antideficiency Act.

         Choice of Law/Choice of Forum Clauses

         TOS agreements also generally include choice of law and choice of forum clauses that
         require disputes to be resolved in a specific forum, most often a state court, or pursuant
         to a specific state’s law. These clauses violate the sovereign immunity doctrine and
         28 U.S.C. §§ 1346 and 1491, which govern jurisdiction in cases involving the United States
         as defendant. 223 OIGs should also be aware of the possible applicability of the Contracts
         Dispute Act of 1978, as amended; the FTCA; and the Tucker Act.

         Boilerplate choice of law and choice of forum clauses may state the following:

                   You will resolve any claim, cause of action or dispute (claim) you have with us
                   arising out of or relating to [social media provider] exclusively in a state or
                   Federal court located in [County]. The laws of [State] will govern this
                   Statement/Agreement, as well as any claim that might arise between you and us,
                   without regard to conflict of law provisions. You agree to submit to the personal

223
   Sovereign immunity is a legal doctrine granting the Federal Government immunity from lawsuits unless it has consented to
being sued. Gray v. Bell, 712 F.2d 490, 509-10 (D.C. Cir. 1983).

                                                            49

                              OFFICE OF INSPECTOR GENERAL

                                       Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov


                   jurisdiction of the courts located in [County, State] for the purpose of litigating all 

                   such claims.

         To avoid violations of applicable law, GSA has negotiated with service providers to
         amend such language. GSA’s negotiated TOS agreement with one social media provider
         includes the following language:

                   3(a) Governing Law and Liability of Government Entity. The provision in the
                   Terms of Use that governs the jurisdiction, venue and choice of law in the
                   resolution of any claim, cause of action or dispute arising out of your use of
                   [social media site] is hereby replaced with the following:

                   You and [social media site] will endeavor to resolve any claims, causes of action
                   or disputes in an amicable fashion. Any claim, cause of action or dispute that
                   arises from these Terms of Use will be governed, interpreted and enforced in
                   accordance with the laws of the United States of America. In the absence of
                   federal law, the laws of [State] will apply. The liability of Government Entity and
                   its obligations to Company resulting from any breach by Government Entity of
                   any of the provisions of this Terms of Use or any claim, cause of action or dispute
                   arising from this Terms of Use will be determined under the Contract Disputes
                   Act, the Federal Tort Claims Act, the Tucker Act, or any other applicable law.224

         GSA’s model TOS includes the following choice of law language:

                   Governing law: Any arbitration, mediation or similar dispute resolution provision
                   in the TOS is hereby deleted. The TOS and this Amendment shall be governed by
                   and interpreted and enforced in accordance with the laws of the United States of
                   America without reference to conflict of laws. To the extent permitted by federal
                   law, the laws of the State of [Company to insert name of state if one is
                   mentioned in its TOS] (excluding [Company's state] choice of law rules) will apply
                   in the absence of applicable federal law. 225

         As with the indemnification language above, OIGs should determine whether GSA-
         negotiated language with regard to choice of law and forum fits their needs. If an OIG
         negotiates with a service provider, then at a minimum the choice of law and forum
         clauses should establish that Federal law applies to the agreement, not state law, since
         Federal courts have exclusive jurisdiction over the Federal Government.



224
   See GSA TOS Amendments, supra note 222. 

225
   Amendment to [Name of Company] Terms of Service Applicable to U.S. Government Users/Members, GEN. SERV. ADMIN.,

available at http://www.howto.gov/sites/default/files/model-amendment-to-tos-for-g.pdf (last visited Aug. 16, 2013). 


                                                            50

                                OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


          Confidentiality Clauses

          Some new media providers include confidentiality clauses in their user agreements. As
          discussed above, the FOIA provides individuals with a right, enforceable in court, to
          request and obtain access to Federal agency records, except to the extent that records
          or portions of records are protected from public disclosure by a statutory exemption or
          exclusion. 226 Since an OIG’s use of new media can result in the creation of records, an
          OIG may be required under FOIA to disclose such information in violation of any
          confidentiality clause. An OIG may also be required to produce records created through
          the use of new media in response to a Privacy Act request, a subpoena, or a discovery
          order. If a confidentiality clause exists in a new media provider’s TOS agreement, it is
          advisable to ensure that any TOS be amended to recognize that the OIG will maintain
          confidentiality “to the extent permitted by law.”

          Advertising Clauses

          Increasingly, social media websites include paid advertising on the pages of their
          subscribers, and a boilerplate TOS agreement may include a clause requiring the
          subscriber to authorize this practice. However, ads on an OIG’s social media page
          create a risk of violating regulations prohibiting employees from using or allowing the
          use of their public office to endorse any product, service, or enterprise.227 Whether
          explicitly authorized by the subscribing OIG or not, ads on OIG-sponsored new media
          could be construed as an endorsement of the advertised product or service. To prevent
          violations, TOS agreements should be carefully examined for provisions concerning
          advertising, and modifications should be negotiated as necessary. For example, a GSA-
          approved TOS agreement for Federal agencies contains the following provision:

                    Company hereby agrees not to serve or display any third party commercial ads or
                    solicitations on any pages within the Company website displaying content
                    created by or under the control of the Agency, provided that your sole remedy for
                    [Company’s] breach hereof shall be to terminate your use of the website. This
                    exclusion shall not extend to house ads, which Company may serve on such pages
                    in a non-intrusive manner. 228

          This provision allows the new media provider to place one sort of advertisement on
          Federal Government pages—“house advertisements” for its own services. Although
          house ads may be permissible, OIGs should not agree to a TOS that allows advertising
          from other sources. Table 2 shows possible ways to address TOS issues:


226
    5 U.S.C. § 552. See supra Information and Privacy section.

227
    5 C.F.R. § 2635.702. 

228
    See GSA TOS Amendments, supra note 222. 


                                                                  51

                                  OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                             Washington, DC 20528 / www.oig.dhs.gov


                                                     Table 2: TOS Issues
         Clause                              Issue                                           Possible Fix
Indemnification            User (OIG) agrees to reimburse               Incorporate Federal government liability limits
                           the provider for damages to third            from Federal Tort Claims Act.
                           parties. Violates Antideficiency Act.
Choice of Law              Contrary to sovereign immunity               Change to incorporate Federal laws, such as
                           doctrine.                                    Contract Disputes Act, Federal Tort Claims Act,
                                                                        and the Tucker Act.
Choice of Forum            Contrary to sovereign immunity               Change clause to reflect “any competent
                           doctrine.                                    Federal court.”
Unilateral                 Provider reserves right of                   Require notification period with time limit for
Changes                    unilateral change to TOS, after              OIG to concur or terminate agreement.
                           notice on website.
Use of Agency              May create the appearance of                 Allow provider to use OIG name or seal only to
Name/Seal/Logo             endorsement.                                 state that it uses the provider’s service (factual
                                                                        statement). Forbid provider from stating or
                                                                        implying that OIG endorses the service, or
                                                                        from using OIG logo or seal in ads.
Confidentiality            Possible inconsistency with                  Incorporate statutory disclosure requirements.
                           Privacy Act, FOIA, or litigation
                           requirements.
Advertisements             May create apparent endorsement              Change clause to prohibit third-party ads or
                           of advertised service or product.            solicitations.

            Intellectual Property Issues 


            Using new media may present challenges with regard to intellectual property rights,
            such as government seals, copyright, and trademarks. OIGs should ensure that their
            external new media websites provide clear, concise statements about the intellectual
            property rights public users should be aware of. For example, an OIG might notify users
            that the government may not claim intellectual property rights in user-created content,
            but a third-party new media provider may, and users should check the third party’s
            policy. Additionally, public-facing websites should warn users when use of government
            content might infringe on an intellectual property right.

            Government Seals

            In general, a private citizen may not upload an image of an agency seal or logo for use
            within a personal social media account. Government seals are not in the public
            domain.229 Fraudulent, wrongful, or unauthorized use of a government seal or insignia



229
      A public domain work is a creative work that is not protected by copyright and which may be freely used by everyone.

                                                                52

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         is prohibited and punishable as a violation of the Federal criminal code.230 Many
         agencies also have regulations that limit use of specific agency seals or insignia. For
         example, NARA regulations provide directions for authorized use of its seal or logo.231
         OIGs should make clear statements on their new media platforms indicating that use of
         the OIG seal is prohibited unless the user obtains written authorization from the OIG. It
         is important to protect against such improper use because the presence of an OIG’s seal
         might give the appearance of an endorsement of the message or mission of a private
         person or entity.232

         Copyrights

         Owners of copyright protection enjoy the exclusive right to reproduce and distribute
         copies of their original works. 233 The copyright protections relevant to new media exist
         for original works of authorship in literary, musical, pictorial, graphic, motion picture,
         audiovisual, and sound recording works. 234 New media may raise several copyright
         issues, such as government ownership of copyrights, potential government infringement
         upon a private citizen’s copyright, and copyrights available on third-party platforms.

         OIGs should keep a few things in mind. First, copyright protection is not available for a
         U.S. Government work,235 which includes any “work prepared by an officer or employee
         of the United States government as part of that person’s official duties.”236 Accordingly,
         when an OIG employee creates and disseminates information through new media for
         official purposes, that information enters the public domain and cannot be subject to
         copyright protection by the employee or the OIG.237 Government website content is
         owned by the government, not individual creators, and is likely to be agency record
         material.238

         Second, although government works are not entitled to copyright protection, the
         government may obtain copyrights from private citizens by “assignment, bequest, or


230
    18 U.S.C. § 1017 (wrongful use of government seals); 18 U.S.C. § 506 (knowing use of forged or counterfeit government 

seal); 18 U.S.C. § 701 (unauthorized manufacture, sale, or possession of a government insignia). 

231
    36 C.F.R. Part 1200. 

232
    See supra Ethics section regarding endorsements.

233
    17 U.S.C. § 106.

234
    Id. at § 102. 

235
    Id. at § 105. 

236
    Id. at § 101. 

237
    See Copyright and Other Rights Pertaining to U.S. Government Works, USA.GOV, http://www.usa.gov/copyright.shtml for 

information on some exceptions to this general rule. For example, other people may have rights in the work itself or in how the 

work is used, such as publicity or privacy rights. Works prepared for the U.S. Government by independent contractors may be 

protected by copyright. Not all information that appears on U.S. Government websites is considered to be a U.S. Government 

work.

238
    See Implications for Recent Web Technologies for NARA Web Guidance, NAT’L ARCHIVES & RECORDS ADMIN., 

http://www.archives.gov/records-mgmt/initiatives/web-tech.html (last visited Aug. 16, 2013). 


                                                              53

                                 OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          otherwise.” 239 In addition, Federal employees may secure copyright protection for
          works written “at that person’s own volition and outside his or her duties, even though
          the subject matter involves Government work or professional field of the official or
          employee.” 240 For example, an OIG employee who drafts a white paper analyzing the
          impact of a piece of legislation as directed by her supervisor and then posts the paper
          on the OIG’s social media websites cannot obtain copyright protection for that work.
          However, if the employee wrote an op-ed on the same piece of legislation and posted it
          on her personal social media website, she could secure a copyright for the work so long
          as the work was not required, and she wrote it on her own time. She could also choose
          to assign her personal copyright to the OIG.

          Finally, an OIG cannot authorize an individual’s use of copyrighted materials found on
          OIG websites hosted by third-party platforms. OIGs should consider adding disclaimer
          language similar to that of OGE’s, which states that it “cannot authorize the use of
          copyrighted materials contained in linked websites.” 241

          Liability for Copyright Infringement

          OIGs may be liable for copyright infringement when using new media if they reproduce,
          distribute, or display a copyrighted work without the express permission of the author
          or copyright holder.242 To establish a claim of copyright infringement, the copyright
          holder need only establish “ownership of the copyright . . . and copying by the
          defendant.” 243 However, the “fair use” defense allows “people other than the copyright
          owner to use the copyrighted material in a reasonable manner without his consent.” 244
          Use of a work for “criticism, comment, news reporting, teaching, scholarship, or
          research does not infringe upon copyright.”245 Accordingly, OIGs may be able to use
          copyrighted material in new media forums without infringing on copyrights, so long as
          their use qualifies as a “fair use.”

          Courts consider four factors in determining whether the use of a work is fair:

          •	 the purpose and character of the use, including whether the use is of a commercial
             or nonprofit nature;
          •	 the nature of the work;


239
    17 U.S.C. § 105.

240
    H.R. REP. NO. 94-1476, 58-59, reprinted in 1976 U.S.C.C.A.N. 5659, 5671-73 (1976).

241
    See OGE Disclaimer of Liability, supra note 110. 

242
    See 17 U.S.C. § 106 (stating “the owner of copyright under this title has the exclusive rights to do and to authorize” the 

reproduction, distribution, and display or copyrighted works). 

243
    Hustler Magazine Inc. v. Moral Majority Inc., 796 F.2d 1148, 1151 (9th Cir. 1986). 

244
    Id.; see also 17 U.S.C. §§ 106, 107. 

245
    17 U.S.C. § 107.


                                                                 54

                               OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         •	 the amount and substantiality of the portion used in relation to the work as a whole;
            and
         •	 the effect of the use on the potential market for or value of the work. 246

         Determining whether an OIG’s use of a copyrighted work is fair requires a case-by-case
         analysis. The most important factor for OIGs to consider is whether a use of another’s
         work might impair the marketability or the value of the copyrighted work.247

         OIGs can protect themselves from copyright infringement liability by providing
         disclaimers on external-facing new media websites. For example, OIGs might post
         notices warning members of the public not to violate another’s copyright and
         disclaiming liability for third-party social media activities that violate a copyright.

         Trademarks

         A trademark is any “any word, name, symbol, or device or any combination thereof” to
         identify and distinguish goods from those manufactured or sold by others and to
         indicate their source.248 In intellectual property discussions regarding social media,
         trademarks can refer to agency logos and mission statements that appear on social
         media platforms. An official OIG social media platform should have some indicators of
         the official OIG trademark, demonstrating to the public the authenticity of the
         information presented on that website. Private individuals may not use OG trademarks
         or logos on personal social media websites without permission.

         Several pieces of legislation have been created in attempts to protect the use of
         trademarks. For example, the Trademark Act of 1946, as amended,249 also known as the
         Lanham Act, protects the use of trademarks and creates civil liability for persons who
         engage in trademark infringement. Specifically, it prohibits “any person” from using “in
         commerce any reproduction, counterfeit, copy, or colorable imitation of a registered
         mark in connection with the sale, offering for sale, distribution, or advertising of any
         goods or services on or in connection with which such use is likely to cause confusion, or
         to cause mistake, or to deceive,” without consent of the registrant.250 “Any person”
         includes the U.S. Government.251 The Anticybersquatting Consumer Protection Act
         prohibits mimicking other trademarks by using confusingly similar names or images.252
         Neither of these acts prevents fair use of a trademark. Additionally, the Uniform

246
    Id. at § 107(1)-(4).

247
    Craig C. Carpenter, Copyright Infringement and the Second Generation of Social Media: Why Pinterest Users Should Be 

Protected from Copyright Infringement by the Fair Use Defense, 16 J. INTERNET L. 1, 17 (2013). 

248
    15 U.S.C. § 1127.

249
    15 U.S.C. §§ 1051 et seq.

250
    15 U.S.C. § 1114(1)(a). 

251
    Id. at § 1114(1)(b).

252
    15 U.S.C. § 1125(a). 


                                                             55

                              OFFICE OF INSPECTOR GENERAL

                                       Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov


         Domain Name Dispute Resolution Policy provides a process for registering domain
         names. 253 The policy creates a venue for trademark owners to bring forth challenges in
         private administrative proceedings.

         Certain laws are in place to protect the use of trademarks, but OIGs may not always
         know when their official logo or brand is being used on nonofficial social media
         websites. Technology has made it easy for an individual to simply copy and paste a logo
         onto a new website, which may provide false information or divert the public to
         inappropriate material. This is especially concerning for OIGs if they collect personal
         information from the public; imposter websites may use deceit to obtain private
         information from unaware individuals. To discover fake social media platforms, OIGs
         might consider designating an individual to do a routine Internet sweep to determine if
         fake social media accounts have been created in the agency’s name. Watching out for
         inappropriate trademark use can stem negative activities that may injure an OIG’s
         reputation or dilute its message.

         Public Accessibility

         One of the goals of new media should be to help fulfill an OIG’s mission of outreach and
         public affairs by providing information to the public in meaningful ways. However,
         when using new media, OIGs must be sensitive to the discrimination issues that can
         arise with regard to public accessibility to government communications. OIGs should
         ensure that they take steps to comply with laws providing access to government
         information and services to non-native English speakers and the disabled.

         Section 508 of the Rehabilitation Act

         Section 508 of the Rehabilitation Act, as amended, was enacted to ensure that people
         with disabilities have other means to access Federal information found online.254 The
         law applies to all Federal agencies developing or maintaining IT and electronic
         technology. Section 508 requires agencies to provide disabled Federal employees and
         members of the public “access to and use of information and data that is comparable to
         the access to and use of the information and data” that is available to those without
         disabilities. 255

         Absent undue burden, every OIG must ensure that its social media communications
         provide equal access to individuals with disabilities.256 One way to ensure Section 508

253
    See Uniform Domain-Name Dispute-Resolution Policy, ICANN, http://www.icann.org/en/help/dndr/udrp (last visited Aug. 16,
2013).
254
    29 U.S.C. § 798.
255
    29 U.S.C. § 794d(a)(1)(A).
256
    Id.

                                                            56

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                          Washington, DC 20528 / www.oig.dhs.gov


         compliance is to create alternative methods of disseminating information and soliciting
         input to reach underrepresented groups. For example, OIGs can make sure that
         information posted on Twitter is also posted to their official websites, thereby providing
         those without Twitter accounts access to the same information. OIGs should ensure
         that their new media activities are “508 compliant” whether the content is on an
         internal or public-facing website, or includes software, websites, and services that are
         free.257

         Accessibility for People with Limited English Proficiency

         Executive Order 13166, Improving Access to Services for Persons with Limited English
         Ability, requires each Federal agency to ensure that people with limited English
         proficiency (LEP) have meaningful access to its services, programs, and activities so as to
         prevent discrimination on the basis of national origin.258 The Federal Government has
         reinforced its obligations under this EO several times, most recently with a 2011
         memorandum from the Attorney General.259 Using social media and new media to
         interact with the public is agency activity that may require further steps to ensure that
         LEP individuals have meaningful access (i.e., translation into other languages).

         To ensure that agencies provide meaningful access to LEP individuals, EO 13166 requires
         agencies to develop a plan. Department of Justice guidance establishes four factors to
         determine whether an agency needs to create and implement a plan to ensure
         meaningful access to LEP individuals: (1) the number or proportion of LEP individuals,
         (2) the frequency with which LEP individuals came in contact with an agency’s programs,
         (3) the importance of the service provided by the program, and (4) resources
         available. 260

         Since the use of social media and/or new media would constitute an agency activity, the
         OIG must determine its LEP responsibilities. For assistance and guidance the OIG can
         consult its agency’s LEP plan, contact its agency’s LEP office, and refer to the
         Department of Justice guidance and other resources at www.lep.gov.




257
    See Making Multimedia Section 508 Compliant and Accessible, GEN. SERV. ADMIN., http://www.howto.gov/web­
content/accessibility/508-compliant-and-accessible-multimedia (last visited Aug. 16, 2013). 

258
    Exec. Order No. 13,166, 65 Fed. Reg. 50121 (Aug. 16, 2000).

259
    Eric. Holder, Jr., Federal Government's Renewed Commitment to Language Access Obligations Under Executive Order 13166, 

OFF. OF THE ATTORNEY GEN., U.S. DEP’T OF JUSTICE (Feb. 17, 2011), available at 

http://www.justice.gov/crt/lep/13166/AG_021711_EO_13166_Memo_to_Agencies_with_Supplement.pdf. 

260
    Enforcement of Title VI of the Civil Rights Act of 1964—National Origin Discrimination Against Person With Limited English 

Proficiency; Policy Guidance, 65 Fed. Reg. 50123, 50124 (Aug. 16, 2000).


                                                              57

                                 OFFICE OF INSPECTOR GENERAL

                                          Department of Homeland Security

                                            Washington, DC 20528 / www.oig.dhs.gov


          Liability

          Along with all the legal and privacy issues comes a concern about potential liability.
          Indeed, torts litigation involving social media is a growing phenomenon. Defamation
          claims involving Twitter posts even have a name: “twibel” suits. However, while both
          OIG employers and employees may be liable for issues relating to social media activity,
          the risks at this point appear minimal. Nonetheless, an OIG should keep potential
          liability issues in mind while developing a social media policy and implementing social
          media for official purposes.

          The FTCA constitutes a limited waiver of sovereign immunity, requiring any claim for
          money damages resulting from an employee’s negligence or omission to be filed against
          the United States, as long as the employee was acting within the scope of
          employment.261 Under the FTCA, the United States is liable if a private person would be
          liable in accordance with the law of the place where the act or omission occurred
          (absent any exclusions under the FTCA). 262 As a result, courts apply state law to
          determine whether an employee was within the scope of employment.263 If an
          employee is found to be acting within the scope of employment, the employee is
          immune from all resulting suits.264

          Although the FTCA does not completely waive sovereign immunity, Federal agencies are
          immune from certain torts, such as libel, slander, misrepresentation, and deceit.265 In
          other words, if an employee, acting within the scope of employment, is sued for
          defamation for official OIG social media activity, the United States will substitute itself
          as a defendant, and neither the employee nor the OIG will be liable.

          One tort that potentially could cause an OIG employer liability involves privacy, such as
          an invasion of privacy claim. 266 Each state may develop its own privacy laws, so the
          elements may vary state by state. In general, modern tort law has four generally
          recognized categories of invasion of privacy: intrusion of seclusion or solitude, public



261
    28 U.S.C. § 2671, et seq.

262
    28 U.S.C. §§ 1346(b)(1), 2674. 

263
    Garcia v. United States, 62 F.3d 126, 127 (5th Cir. 1995) ("[W]hether a particular federal employee was or was not acting 

within the scope of his employment is controlled by the law of the state in which the negligent or wrongful conduct occurred").

264
    Note that the Westfall Act requires the Attorney General to certify that the employee was within the scope of employment. 

See 28 U.S.C. § 2679(d)(1)-(3). However, that determination may be challenged. See Gutierrez De Martinez v. Lamagno, 515 U.S. 

417, 430-31 (1995) (“The certification, removal, and substitution provisions of the Westfall Act . . . work together to assure that, 

when scope of employment is in controversy, that matter, key to the application of the FTCA, may be resolved in federal court. 

To that end, the Act specifically allows employees whose certification requests have been denied by the Attorney General, to

contest the denial in court.”). 

265
    28 U.S.C. § 2680(h). 

266
    See William L. Prosser, Privacy, 48 CALIF. L. REV. 383, 389 (1960); RESTATEMENT (SECOND) OF TORTS §§ 652A-652E (1977).


                                                                58

                                  OFFICE OF INSPECTOR GENERAL

                                           Department of Homeland Security

                                             Washington, DC 20528 / www.oig.dhs.gov


          discourse of private facts, false light, and appropriation of a person’s name or
          likeness. 267

          In addition, a citizen may sue the government for abridging his or her First Amendment
          (or other constitutional) rights. An employee acting within the scope of employment
          may be sued personally for a constitutional tort in a case often called a “Bivens”
          action.268 However, the doctrine of qualified immunity allows government officials to
          exercise fair judgment and “provides ample protection to all but the plainly incompetent
          or those who knowingly violate the law.” 269 This doctrine likely would protect an
          employee sued for deleting a member of the public’s communications (an alleged
          violation of free speech rights), unless the employee willfully violated the law.270

          With so many legal and privacy issues to consider, including potential liability, an OIG
          may hesitate before starting or expanding a social media program. The potential pitfalls
          demand not only knowledge at the outset, but also regular and continual maintenance.
          Despite potential pitfalls, however, OIGs will benefit from addressing the issues if only
          to steer employees in the right direction. No matter the degree to which an OIG
          engages new media, it can be sure that many employees already have an active social
          media presence.

          In addition to the considerations discussed above, an OIG also needs to be aware of
          information security requirements. This next section will cover such information
          security issues as the Federal Information Security Management Act of 2002, cloud
          computing, social media, engaging new media providers, and protecting OIG networks.

Information Security Considerations
          Social media services and new media often appear to confound the traditional security
          model for Federal agencies. Traditionally, agencies have controlled all aspects of an
          information system or contracted information services. Increasingly, however, as many
          social media services and new media apps are free, they can be provisioned outside of
          the authority of an agency's Chief Information Officer (CIO). In the past, the CIO has
          been primarily responsible through the Clinger-Cohen Act of 1996, as amended, for
          ensuring sound IT investments through associated laws, regulations, and Federal


267
     RESTATEMENT (SECOND) OF TORTS § 652E, cmt. b (2012). 

268
     Bivens v. Six Unknown Named Agents of the Federal Bureau of Narcotics, 403 U.S. 388 (1971) (Federal officials may be sued 

personally for money damages for the alleged violation of constitutional rights stemming from official acts). 

269
     Malley v. Briggs, 475 U.S. 335, 341 (1986).

270
     Harlow v. Fitzgerald, 457 U.S. 800, 815 (1982) (holding that immunity would be defeated if an official "knew or reasonably 

should have known that the action he took within his sphere of official responsibility would violate the constitutional rights of 

the [plaintiff], or if he took the action with the malicious intention to cause a deprivation of constitutional rights or other injury 

. . .") (citing Wood v. Strickland, 420 U.S. 308, 322 (1975)).


                                                                  59

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


         policies. One of the key provisions of the Federal Information Security Management Act
         of 2002 (FISMA), as amended, is to provide for the development and maintenance of
         minimum controls required to protect Federal information and information systems
         used by or on behalf of agencies. In practice, though, more attention has been given to
         the latter, as most Federal data resides on internal agency information systems that are
         tangible, traceable agency assets.

         As OIGs embrace social media, the cloud, and other third-party websites and apps,
         Federal data will no longer receive the protections or assurance of fully assessed and
         accredited government networks, systems or personnel. In this new paradigm, data
         regularly traverses government and corporate networks, as well as domestic and
         international boundaries, where it is subject to varying degrees of protection.

         As Federal data is stored, processed, and transmitted through unknown and often
         insecure environments, agencies expose themselves to new security and privacy
         concerns that they will need to address to ensure that they achieve success with these
         new tools and accomplish the agency’s mission. Demand for social media and new
         media websites, apps, and services also puts pressure on OIGs to permit access to these
         websites, services, and apps through secure government networks.

         The popularity of social media and new media websites, combined with their large
         memberships, make them attractive targets for malicious activities. When an OIG
         decides to allow access to these websites and services through secure government
         networks, additional safeguards and risk acceptance or mitigation need to be
         considered. OIGs will need to ask a few questions when proceeding with new media
         and the use of third-party storage. Where will the government data be hosted
         (internally, externally, hybrid)? Will the platform be used for internal or external
         communications, or both? The answer to these questions will have implications on
         which security laws, policies, and guidelines OIGs will need to follow.

         Federal Information Security Management Act of 2002

         FISMA was passed as Title III of the E-Government Act of 2002 in December 2002. It
         requires each Federal agency to develop, document, and implement an agency-wide
         program to provide information security for the information and information systems
         that support the operations and assets of the agency, including those provided or
         managed by another agency, contractor, or other source.271 FISMA applies to all cloud
         computing, new media, and social media that stores, processes, or transmits Federal
         information. However, the application and implementation of FISMA-related

271
   FISMA Frequently Asked Questions, NAT’L INST. OF STANDARDS & TECH. (May 16, 2012), available at
http://csrc.nist.gov/groups/SMA/fisma/faqs.html.

                                                              60

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov


         information security requirements to specific new media technologies may differ across
         OIGs based upon the types of information and how the technology is used in the various
         systems and services.

         Pursuant to FISMA, OMB and the National Institute of Standards and Technology (NIST)
         issued standards and guidelines for how an agency should account for different
         information and information systems. These FISMA-related standards vary depending
         on the risk associated with the information and the information system. For example,
         agency use of public social media sites for public outreach may be considered low-risk,
         and a basic periodic risk assessment and implementation of some controls, including
         employee training, might be sufficient. In contrast, use of an internal information-
         sharing platform that contains sensitive agency information is higher risk and may
         involve more complex requirements, including comprehensive continuous monitoring.

         Cloud Computing

         Cloud computing is often the engine that drives new media tools and services. NIST
         defines cloud computing as a model for enabling ubiquitous, convenient, on-demand
         network access to a shared pool of configurable computing resources (e.g., networks,
         servers, storage, apps, services) that can be rapidly provisioned and released with
         minimal management effort or service provider interaction.272 This applies to several
         service models including SaaS, Platform as a Service, and Infrastructure as a Service
         regardless of whether the hosting service is provided by another Federal entity or
         commercial organization. Cloud computing is also inclusive of services used for internal
         communications or external engagements such as social media.

         To address the security implications of cloud computing, OMB released a memorandum
         titled Security Authorization of Information Systems in Cloud Computing Environments
         on December 8, 2011.273 This memorandum formally sets the requirements created
         under the Federal Risk and Authorization Management Program (FedRAMP) as
         mandatory for Federal departments and agencies. FedRAMP establishes standardized
         security requirements for the authorization and ongoing cybersecurity of cloud services
         for selected information system impact levels that map back to FISMA requirements. It
         applies to executive departments and agencies procuring commercial and
         noncommercial cloud services that are provided by information systems that support
         the operations and assets of the departments and agencies, including systems provided
         or managed by other departments or agencies, contractors, or other sources.


272
    The Definition of Cloud Computing, NAT’L INST. OF STANDARDS & TECH. (Sept. 2011), available at 

http://csrc.nist.gov/publications/nistpubs/800-145/SP800-145.pdf. 

273
    Steven VanRoekel, Security Authorization of Information Systems in Cloud Computing Environments, OFF. MGMT. & BUDGET

(Dec. 8, 2011), available at https://cio.gov/wp-content/uploads/2012/09/fedrampmemo.pdf.


                                                            61

                               OFFICE OF INSPECTOR GENERAL

                                        Department of Homeland Security

                                         Washington, DC 20528 / www.oig.dhs.gov


         The FedRAMP requirements are being phased in through June 2014. By that date, all
         Federal cloud instances are required to be in compliance with FedRAMP policy.
         Organizations will be required to self-identify and report annually to OMB the cloud
         services being used that do not meet FedRAMP requirements. In the meantime,
         departments and agencies are required to do the following:

         •	 Leverage the FedRAMP process and security authorization requirements as a
            baseline when initiating, reviewing, granting, and revoking security authorizations
            for cloud services;

         •	 Require cloud service providers to meet FedRAMP requirements in contractual
            provisions; and

         •	 Assess, authorize, and continuously monitor security controls that are the agency’s
            responsibilities.

         The FedRAMP website, www.FedRAMP.gov, provides information on how to comply
         with the program’s security requirements and guidance and how to structure standard
         contracting language for cloud service providers.

         Social Media

         The umbrella of new media also covers a range of social media tools, websites, and
         apps. On June 28, 2011, GAO released a report titled Social Media: Federal Agencies
         Need Policies and Procedures for Managing and Protecting Information They Access and
         Disseminate, which found that:

                   most agencies did not have documented assessments of the security risks that
                   social media can pose to federal information or systems in alignment with FISMA
                   requirements, which could result in the loss of sensitive information or
                   unauthorized access to critical systems supporting the operations of the federal
                   government. Without conducting and documenting a risk assessment, agency
                   officials cannot ensure that appropriate controls and mitigation measures are in
                   place to address potentially heightened threats associated with social media,
                   such as spear phishing and social engineering.274

         Additionally, some of these services, apps or websites are third-party websites and apps
         that may be considered cloud computing-based SaaS subject to the requirements of
         FedRAMP. The FedRAMP program is still in its infancy, and most social media services

274
   Social Media: Federal Agencies Need Policies and Procedures for Managing and Protecting Information They Access and
Disseminate, GAO-11-605, GOV’T ACCOUNTABILITY OFFICE (June 2011), available at http://www.gao.gov/assets/330/320244.pdf.

                                                            62

                OFFICE OF INSPECTOR GENERAL

                       Department of Homeland Security

                        Washington, DC 20528 / www.oig.dhs.gov


will not have formal authorization packages on file with the FedRAMP program office in
the foreseeable future. However, the security controls and guidance put forth by the
FedRAMP office will help OIGs assess the security of social media services and formally
authorize their use.

Engaging New Media Providers

When engaging in new media and social media services, OIGs are confronted with a
significant risk-management challenge. In many cases, the service providers are willing
to enter into a specific TOS with an OIG, during which time the OIG has an opportunity
to negotiate as many security and privacy requirements as possible. At times, such
negotiations will not be favorable to the OIG, and the OIG will be pressured to accept
terms as provided by the new media or social media company. The following sections
describe different tactics that OIGs may use to meet security and privacy requirements.
OIGs should carefully review their relationship with social media and new media
providers to ensure appropriate security and privacy matters are defined. OIGs should
work with the new media providers to assess the security controls available and
encourage the use of the available security controls in an effort to meet the Federal
guidelines. Such topics include records retention, back-up of information, and securely
storing credentials. Additional information may be found in appendix C.

Protecting OIG Networks While Accessing New Media Platforms

Consideration must be given as to when an OIG decides to have an official presence on a
social media or new media platform, and equal consideration must be given as to how
OIG users will access social media and new media services and websites. Many
organizations and businesses block social media and new media websites for a variety of
reasons, including security, privacy, and network performance. In crafting a new media
or social media strategy, an OIG must also be aware of additional security and privacy
challenges. Numerous technologies can aid an organization considering allowing access
to new media and social media services and websites. OIGs should carefully consider
which technologies may be appropriate to ensure secure access to social media and new
media websites. They should address new media just as they would an internal system
or network. Although the OIG does not own the new media, certain precautions should
be taken before creating a presence on a new media website. For instance, OIGs should
conduct a PIA and determine whether the application requires a SORN per the Privacy
Act. The OIG should develop a Concept of Operations to formally authorize new media
services and address how those services are leveraged and used. OIGs should conduct
and provide training to those authorized to use new media. Training can provide
guidance on recognizing operation security violations, limiting potential PII data
breaches, promoting ethical behavior, and delivering appropriate information via new
media. Additional information may be found in appendix D.
                                         63

                      OFFICE OF INSPECTOR GENERAL

                             Department of Homeland Security

                              Washington, DC 20528 / www.oig.dhs.gov


Conclusion

     We encourage OIGs to consider using new media to further their mission, but as this
     report illustrates, new media has the potential to open many legal, privacy, and
     information security concerns. Even if an OIG declines to engage new media, it is
     prudent to develop appropriate policies and train employees in proper social media use.
     Missteps and problems may result from inadequate education and preparation.

     Before embarking on a social media program, an OIG might consider analyzing its
     business need for social media based on such cost-benefit analysis questions as: Do we
     have the resources to start and maintain a social media program? Are we able to
     devote adequate personnel and resources to support and monitor an interactive blog or
     another social media network? How will those resources improve outreach and allow
     interactive communications with our stakeholders and the public? If we do not engage
     social media today, will we be behind tomorrow? Reaching out to other OIGs already
     engaged in new media may boost an OIG’s confidence in its abilities to manage the
     legal, privacy, and information security issues.

     On the information security front, OIGs preparing to deploy new media may discover
     that many of the required risk-management policies, procedures, standards, and
     guidelines are already in place. In IT planning, OIGs should include their CIO, Chief
     Information Security Officer, and Senior Official for Privacy. This will decrease potential
     legal, reputational, and monetary risks of using social media and new media services.
     OIGs also should consider whether investments in IT systems and software may be
     necessary to ensure proper risk mitigation.

     As an OIG decides the extent to which it wishes to engage new media, we hope that this
     report will help facilitate informed decisions. However, this report should not be used
     as a substitute for independent legal advice, and the CIGIE New Media Working Group
     members and sponsors expressly disclaim liability for errors and omissions in the
     contents of this report.




                                               64

                        OFFICE OF INSPECTOR GENERAL

                               Department of Homeland Security

                                Washington, DC 20528 / www.oig.dhs.gov


Appendix A
Objectives, Scope and Methodology
We undertook this review at the request of CIGIE’s Homeland Security Roundtable. The
purpose of this review was to share new media legal, privacy, and information security research
and analysis with OIGs. This analysis is designed to better equip OIGs that are engaging or
starting to engage new media and, for OIGs not planning on using new media, to illustrate why
being aware of the issues and developing a policy and training are nonetheless important.

The Working Group was staffed with attorneys and information security professionals from
offices of presidentially appointed and designated Federal entity Inspectors General. The group
met regularly from September 2012 until the spring of 2013. The Working Group conducted
independent research and analysis, aided by the work of the original working group and
consultations with specialists from NARA, the Air Force, the Federal Trade Commission, and
GSA.

This report should not be used as a substitute for independent legal advice. New media is a
fluid area, and laws and policies may change at a rapid pace. The CIGIE New Media Working
Group members and sponsors expressly disclaim liability for errors and omissions in the
contents of this report. No warranty of any kind, implied, expressed, or statutory, is given with
respect to the contents. The information appearing in this report is for general informational
purposes only and is not intended to provide legal, privacy, or information security-related
advice to any individual or entity.




                                                 65

                                OFFICE OF INSPECTOR GENERAL

                                    Department of Homeland Security

                                    Washington, DC 20528 / www.oig.dhs.gov


Appendix B
Sample New Media FISMA Legal Analysis
This appendix addresses the question of whether FISMA requirements (44 U.S.C. Sec. 3541, et
seq.) apply to information that an OIG disseminates to the public using new media or social
media. Messages are sent through new media and social media websites by establishing an
account and sending messages through the Internet via the new media or social media website
or mobile apps. FISMA requirements apply to new media and social media to the extent that
these platforms are used to convey OIG information.

44 U.S.C. § 3541 sets forth the purposes of FISMA, which include providing effective
government oversight over information security risks and maintaining minimum security
controls required to protect Federal information and information systems. In furtherance of
these goals, FISMA imposes requirements and responsibilities on OMB and on Federal agencies
that relate to the establishment of programs to protect Federal information:

            (a) In General. -- The head of each agency shall -­
                    (1) be responsible for -­
                            (A) providing information security protections commensurate with the
                            risk and magnitude of the harm resulting from unauthorized access, use,
                            disclosure, disruption, modification, or destruction of -­
                                    (i) information collected or maintained by or on behalf of the
                                    agency; and
                                    (ii) information systems used or operated by an agency or by a
                                    contractor of an agency or other organization on behalf of an
                                    agency. . . . 275

In addition, FISMA states that each agency must establish an agency-wide information security
program that includes, among other things, "periodic assessments of the risk and magnitude of
the harm that could result from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems that support the
operations and assets of the agency," and which ensures compliance with applicable standards
promulgated under Section 11331 of Title 40 (the NIST standards).276

These provisions would encompass an OIG's use of new media and social media to
communicate with the public because the information conveyed would be "information
conveyed or maintained. . . on behalf of the agency," and the new media or social media
system itself would qualify as an "information system used or operated . . . on behalf of an


275
      44 U.S.C. § 3544(a)(1).
276
      Id. at § 3544(b).

                                                     66

                             OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security

                                 Washington, DC 20528 / www.oig.dhs.gov


agency." FISMA does not explicitly define the information to be protected and, consequently,
also does not explicitly exclude OIG information conveyed via new media or social media from
the information that must be secured through an OIG’s required information security program.
"Information systems" is defined as "a discrete set of information resources organized for the
collection, processing, maintenance, use, sharing, dissemination, or disposition of
information." 277 This definition would include new media and social media as an information
system, because OIG would use new media and social media as an information resource to
share or disseminate information. Consequently, an OIG is obligated under 44 U.S.C. § 3544 to
incorporate into its information security program the information conveyed via new media or
social media and the information system itself.

OMB's computer security and FISMA guidance confirms this conclusion. OMB promulgated
Circular A-130 to instruct agencies on how to implement information security requirements
under earlier computer security statutes. Although A-130 pre-dates FISMA, its requirements
are still applicable. In paragraph (a)(g) under "8. Policy," the Circular states that agencies must
"[p]rotect government information commensurate with the risk and magnitude of harm that
can result from the loss, misuse, or unauthorized access to or modification of such information.
. . ." The Circular defines "government information" as "information created, collected,
processed, disseminated, or disposed of by or for the Federal Government," which would
include an OIG's social media and new media information. Under the question "How will
agencies ensure security in information systems," OMB replies, "Apply OMB policies and . . .
NIST guidance to achieve adequate security commensurate with the level of risk and magnitude
of harm. . . ." OMB defines "information system" as "a discrete set of information resources
organized for the collection, processing, transmission, and dissemination of information ...
whether automated or manual." "Dissemination" is defined as "the government initiated
distribution of information to the public." Because (1) OIG new media and social media
information meets the definition of "government information," (2) new media and social media
satisfies the plain meaning of "information system," and (3) the act of “posting” OIG
information qualifies as "dissemination," there is no basis to exclude use of social media and
new media from these requirements absent further clarification from OMB.

Pursuant to its FISMA obligations, OMB also promulgates annual FISMA reporting instructions.
The 2010 instructions appear to require that new media and social media be used consistent
with security requirements. FAQ 8 asks, "Should all of my agency's information systems be
included as part of our FISMA report?" OMB answers, "Yes" (with further elaboration, but no
limitation). As stated above, a new media and social media service qualifies as an "information
system." In FAQ 11, OMB states that NIST standards must be applied to all non-national
security information systems. In FAQ 13, OMB states, "Section 3541 of FISMA provides [that
FISMA’s] security requirements apply to 'information and information systems' without
distinguishing by form or format; therefore, the security requirements outlined in FISMA apply

277
      44 U.S.C. § 3502(8).

                                                  67

                        OFFICE OF INSPECTOR GENERAL

                               Department of Homeland Security

                                Washington, DC 20528 / www.oig.dhs.gov


to Federal information in all forms and formats (including electronic, paper, audio, etc.)." In
FAQ 25, OMB states that "security authorizations are required for all Federal information
systems." In FAQ 36, OMB states, "[A]gency information security programs apply to all
organizations (sources) which possess or use Federal information—or which operate, use, or
have access to Federal information systems (whether automated or manual)—on behalf of a
Federal agency."

Although the 2010 instructions do not specifically address use of social media or new media,
FAQ 22 states that agencies should include SaaS and "software subscription" solutions in their
annual security reviews. In conclusion, FISMA and OMB require that the standards be applied.




                                                 68

                              OFFICE OF INSPECTOR GENERAL

                                       Department of Homeland Security

                                        Washington, DC 20528 / www.oig.dhs.gov


Appendix C
FISMA, NIST, OMB, FedRAMP, and Privacy Considerations
Federal Information Security Management Act

FISMA requires each Federal agency to develop, document, and implement an agency-wide
program to provide information security for the information and information systems that
support the operations and assets of the agency, including those provided or managed by
another agency, contractor, or other source.

GAO made the following statement in Social Media: Federal Agencies Need Policies and
Procedures for Managing and Protecting Information They Access and Disseminate:

         The Federal Information Security Management Act of 2002 (FISMA) established a
         framework designed to ensure the effectiveness of security controls over information
         resources that support federal operations and assets. According to FISMA, each agency
         is responsible for, among other things, providing information security protections
         commensurate with the risk and magnitude of the harm resulting from unauthorized
         access, use, disclosure, disruption, modification, or destruction of information collected
         or maintained by or on behalf of the agency and information systems used or operated
         by an agency or by a contractor of an agency or other organization on behalf of an
         agency.

         Consistent with its statutory responsibilities under FISMA, in August 2009 the National
         Institute of Standards and Technology (NIST) issued an update to its guidance on
         recommended security controls for federal information systems and organizations. The
         NIST guidance directs agencies to select and specify security controls for information
         systems based on an assessment of the risk to organizational operations and assets,
         individuals, other organizations, and the nation associated with operation of those
         systems. According to the guidance, the use of a risk-based approach is applicable not
         just to the operation of the agency’s internal systems but is also important when an
         agency is using technology for which its ability to establish security controls may be
         limited, such as when using a third-party social media service. 278

To meet FISMA compliance, social media and new media must have a risk assessment
performed through compliance with the NIST risk management framework. The level of
diffusion, use, and ease of provisioning of new media and social media makes it important to
involve all business, technical, and legal stakeholders before engaging in social media to identify
risks and where possible mitigate unnecessary risks. When determining FISMA applicability, it

278
   Federal Agencies Need Policies and Procedures for Managing and Protecting Information They Access and Disseminate, GAO­
11-605, GOV’T ACCOUNTABILITY OFFICE (June 28, 2011), available at http://www.gao.gov/assets/330/320244.pdf.

                                                           69

                        OFFICE OF INSPECTOR GENERAL

                               Department of Homeland Security

                                Washington, DC 20528 / www.oig.dhs.gov


is important to engage counsel early in the process so they may understand the use of the
technology, such as what types of information are being used and how the technology or
service is being used on behalf of the OIG’s mission.

The following sections address areas of information assurance and security as defined by NIST
in fulfilling its statutory FISMA responsibilities. Should counsel determine that FISMA does not
apply, the principles enumerated in the NIST Risk Management Framework should still be
considered as they are industry best practices, which when implemented properly can greatly
protect the OIG’s data and reputation, and the public from fraud, waste, and abuse.

Federal Information Processing Standards Series

The Federal Information Processing Standards (FIPS) are NIST standards for computer
information systems when there are compelling Federal government requirements, such as for
security and interoperability. FIPS requirements are mandated by FISMA for the protection of
Federal information and information systems. FIPS are thoroughly vetted by government and
industry experts and often are voluntarily adopted by industry as best practices for enterprise
security. FIPS represent the cornerstones of Federal information assurance and security. The
following publications are the foundation of many Federal security programs:

•	 FIPS 140-2, Security Requirements for Cryptographic Modules;
•	 FIPS 199, Standards for Security Categorization of Federal Information and Information
   Systems; and
•	 FIPS 200, Minimum Security Requirements for Federal Information and Information Systems.

If FISMA applies to the new media or social media application being used, then all applicable
FIPS must be applied as appropriate. Minimally, however, FIPS 199 and FIPS 200 will apply to
all services, systems, or apps. In many cases, a reasonable assurance of FIPS implementation
and compliance for a new media or social media application will not be available as the OIG has
little to no control of the platform. In these cases, the organization's authorizing official must
weigh the possible violation of FIPS (and possibly FISMA) in light of overarching critical mission
need and make a utilization or authorization decision.

NIST Special Publication 800 Series

The NIST Special Publication (SP) 800 Series was established in 1990 to provide an array of
computer security research and guideline documentation relevant to IT practitioners. The
series is the result of research and collaborative activities with industry, government, and
academic organizations. While much of the series is considered to be general guidelines, SP
800-53, or Recommended Security Controls for Federal Information Systems and Organizations,
is legally mandated for Federal agencies under FISMA through FIPS 200. The most recent
version, Rev4, includes specific security controls related to planning (PL), access control (AC),

                                                 70

                         OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security

                                 Washington, DC 20528 / www.oig.dhs.gov


and Audit/Accountability (AU) for social media needs. Other relevant special publications for
social media and new media include—

•	 SP 800-37, Guide for Applying the Risk Management Framework to Federal Information
   Systems: A Security Life Cycle Approach;
•	 SP 800-122, Guide to Protecting the Confidentiality of Personally Identifiable Information (PII);
•	 SP 800-144, DRAFT Guidelines on Security and Privacy in Public Cloud Computing; and
•	 SP 800-145, DRAFT A NIST Definition of Cloud Computing.

These guides can help guide an organization through the NIST risk management framework. As
the framework is applied to social media, new media, and cloud-based apps or services, a
residual risk posture will be developed and give the organizational risk function a more
informed environment to base decisions. The Chief Information Security Officer, Information
Systems Security Officer, or Senior Agency Information Security Officer is typically well-versed
in these documents, processes, and procedures. If an OIG employs IT auditors experienced in
FISMA, FIPS, and the NIST SP 800 series, consider including them in any evaluation of new
media or social media.

Office of Management and Budget Memoranda and Circulars

OMB issues executive orders, instructions, and guidance for Federal agencies in a variety of
operational areas including security and privacy. In June 2010, OMB issued memoranda that
provide specific guidance for the use of third-party websites and apps as well as the web
measurement and customization technologies:

•	 OMB M-10-22, Guidance for Online Use of Web Measurement and Customization
   Technologies; and
•	 OMB M-10-23, Guidance for Agency Use of Third-Party Websites and Applications.

M-10-22 and M-10-23 focus on privacy; the following memoranda and circular address security:

•	 OMB M-7-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
   Information;
•	 OMB M-10-15, Reporting Instructions for the Federal Information Security Management Act
   and Agency Privacy Management; and
•	 OMB A-130, Management of Federal Information Resources.

Specifically, social media, or SaaS providers, are not inherently “Major Information Systems” as
described by OMB Circular A-130, but they do qualify as “information systems” defined by
44 U.S.C. § 3502, since they are “a discrete set of information resources organized for the
collection, processing, maintenance, use, sharing, dissemination, or disposition of information."

                                                  71

                         OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security

                                 Washington, DC 20528 / www.oig.dhs.gov


Additionally, OMB M-10-15 states that all information systems, including SaaS, should be
incorporated in an OIG’s annual FISMA report. Further instructions in M-10-15 require agencies
to perform security assessments for all information systems regardless of impact or use.
Consider engaging the agency Chief Information Security Officer or Senior Official for Privacy
when reviewing OMB security and privacy requirements.

Reporting (OMB/Departmental/Congress)

A vital component of all IT programs is the maintenance of an accurate, timely, and thorough
inventory of all systems, software, and components. When systems and services are addressed
under FISMA, they will be captured by an OIGs’ annual reporting, and stand as a record of the
system and a formal documentation of security controls for OIG information assets. When
systems and services are not addressed under FISMA, there may be alternative reporting
requirements to an OIG to catalog the use of third-party services.

Measuring and Managing Risk

Social media and new media services provide easy and accessible tools to communicate rapidly
with a wide audience. This enhanced communication ability comes at the cost of increased risk.
Risks range from threats to the confidentiality, integrity, and availability of data provided by the
OIG to loss of reputation through public embarrassment if the OIG’s account is compromised.
These risks can be managed, accepted, or mitigated through specific and defined configurations
and uses of social media and new media tools. For example, by requiring strong passwords and
regularly changing them, or restricting the configurations of the tools and what types of
information are processed, stored, or transmitted, an OIG can greatly reduce its risk posture. It
is important to have a thorough understanding of all features and functions of the tools to be
used and then document the desired use and configurations in conjunction with the
information security or assurance function in an organization. Furthermore, it is important to
understand what information the OIG is going to share or store from the service, as many social
media tools provide access to large amounts of PII, and storing and accessing it can have
Privacy Act implications.

Continuous Monitoring

Unlike traditional continuous monitoring approaches for Federal information systems, social
media systems are not in the total control of the OIG. Despite this limitation, continuous
monitoring can be conducted in a limited and usually manual fashion. Specifically, OIGs should
monitor their social media services as continuously and as near real-time as possible to ensure
that their accounts have not been modified or that unofficial information has not been posted
to their account. This can be accomplished through documenting changes to the website and
storing backups of that data on internal OIG systems. Additionally, the technology behind
social media is constantly evolving as new features and functionality are rotated into the

                                                  72

                                OFFICE OF INSPECTOR GENERAL

                                         Department of Homeland Security

                                           Washington, DC 20528 / www.oig.dhs.gov


service offerings. It is important that OIGs maintain their awareness and stay up-to-date of
changes regarding the products that they use. Some new media and social media services will
make sweeping and drastic changes to the controls that protect information. These changes
could come from new features or additional privacy settings that must be taken into account.
For this reason, it is important for OIGs to regularly reevaluate the risk of the use of these tools.
This should also occur with any major content releases or updates to the social media service.
PIAs and security assessments should be routinely reviewed when a significant change occurs
and on a time-based schedule to ensure they are still accurate, thorough, and timely. For more
information about continuous monitoring, review the following publications:

•	 NIST FAQ on Continuous Monitoring; and
   NIST SP 800-137, Information Security Continuous Monitoring for Federal Information
   Systems and Organizations. 279

Federal Risk and Authorization Management Program (FedRAMP)

FedRAMP is a collaboration among NIST, the GSA, the Department of Defense, DHS, the CIO
Council, state and local governments, the private sector, nongovernmental organizations,
academia, and working bodies such as the Information Security and Identity Management
Committee. FedRAMP’s goal is to develop an innovative policy approach to developing trusted
relationships between Federal Executive departments and agencies and cloud service
providers.




279
   Frequently Asked Questions: Continuous Monitoring, NAT’L INST. OF STANDARDS & TECH. (June 1, 2010), available at
http://csrc.nist.gov/groups/SMA/fisma/documents/faq-continuous-monitoring.pdf.

                                                               73

                        OFFICE OF INSPECTOR GENERAL

                               Department of Homeland Security

                                Washington, DC 20528 / www.oig.dhs.gov


Appendix D

Negotiating, Contracting, and Communicating Information Security
Requirements
Engaging New Media Providers

When engaging in new media and social media services, OIGs are confronted with a significant
risk management challenge. In many cases, the service providers are willing to enter into a
specific TOS with an OIG, during which time the OIG has an opportunity to negotiate as many
security and privacy requirements as possible. At times, such negotiations will not be favorable
to an OIG, and the OIG will be pressured to accept the terms provided by the new media or
social media company. The following sections describe different tactics that an OIG may
employ in trying to meet security and privacy requirements.

Voluntarily Meet Federal Information Security Requirements

For some social media and new media services, security can be considered an afterthought, if
not counterproductive, to engaging and growing a user base. However, many established
providers are compelled to maintain their customer base by improving service and security in
parallel. In recent years, the Federal Trade Commission has cited several social media providers
for misleading consumers about their level of privacy protection and information security
practices. Settlement agreements with the providers have required audits by independent
third parties. Audit results can be used to help understand the information security risks
involved in using platforms. Some social media services have already begun using ISO 27001/2
and FISMA-compliant security programs and are willing to share their progress with Federal
agencies. When researching social media tools, due diligence should be performed to reach out
to the companies and engage in security and privacy dialogue so that the OIG’s risk
management function is able to develop a comprehensive understanding of the risk it may be
exposed to while using the service.

Contractual Options for Information Assurance

Social media services are generally free tools available for personal and enterprise use.
However, some service providers offer variations of a tiered service, such as free and paid
subscription models. In addition to enhanced user features in some of the paid subscriptions,
there are often enhanced security configurations as well. When reviewing a social media
service that offers a tiered service plan, it is advisable to enquire about the security
configuration differences between the tiers to be able to make an informed decision before
employing one of these tools. Additionally, a paid service model gives the OIG an opportunity
to negotiate a contract with the service provider and add security and reporting requirements.

                                                 74

                        OFFICE OF INSPECTOR GENERAL

                               Department of Homeland Security

                                Washington, DC 20528 / www.oig.dhs.gov


Always ensure that a contracting officer and counsel are involved in these activities since legal
and contracting issues do arise.

FedRAMP Standard Contract Language

FedRAMP has developed a security contract clause template to assist Federal agencies in
procuring cloud-based services. This template should be reviewed by an OIG counsel to ensure
that it meets all requirements, and then incorporated into the security assessment section of a
solicitation. The template covers FedRAMP requirements for areas like the security assessment
process and related ongoing assessment and authorization. The template also provides basic
security requirements identifying cloud service provider responsibilities for privacy and
security, protection of government data, personnel background screening, and security
deliverables with associated frequencies.




                                                 75

                        OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security

                                 Washington, DC 20528 / www.oig.dhs.gov


Appendix E
Protecting OIG Networks While Accessing New Media Platforms
Great consideration must be given when an OIG decides to have an official presence on a social
media or new media platform, and equal consideration must be given as to how users will
access social media and new media services and websites. Many organizations and businesses
block social media and new media websites for a variety of reasons including security, privacy,
and network performance. In crafting a new media or social media strategy, the OIG must also
be aware of additional security and privacy challenges. Numerous technologies can aid an
organization that is considering allowing access to new media and social media services and
websites.

Web Proxy and Web Filters

Web filters and proxies are designed to filter and block malicious, illegal, inappropriate, or
unwanted web content. Many agencies employ web filters to block designated pages;
however, they also often block social media and new media websites because of the amount of
malware and malicious content potentially distributed by these tools. OIGs employing only
web filters often rely on separate Internet connections through aircards, digital subscriber lines,
or similar technologies. Web proxies are typically much more expensive and require greater
management, but also allow for much greater flexibility in allowing access to websites by
simulating a computer and then opening the content on it first and observing the behavior
using a variety of antivirus and antimalware tools. If the content is deemed acceptable
according to the defined risk threshold, it is passed on to the end user. If the content is
deemed malicious, the end user is informed that the content they are trying to access has been
quarantined. CIOs and information system security officers can provide more information
about web proxies and filters. If an OIG is planning to allow access to new media or social
media websites, it should strongly consider implementing a web proxy. A web proxy will not
protect against all malicious attacks but will greatly reduce the risk of accessing social media
and new media websites.

Data Loss Prevention and Protection

Data loss prevention (DLP) tools are used to examine the types of information leaving an OIG's
network. As social media and new media typically offer the ability to post large amounts of
information on the service, OIGs must be able to detect sensitive information exfiltration.
Many DLP tools can be configured to detect PII, credit card numbers, phrases, and specific
combinations of information. Many of these tools can also be configured to detect sensitive
information in compressed files, documents, and common office documents. DLP tools are
typically a considerable investment and require management support and operational
overhead to operate successfully.

                                                  76

                        OFFICE OF INSPECTOR GENERAL

                               Department of Homeland Security

                                Washington, DC 20528 / www.oig.dhs.gov



Secure Workstations or Terminals

Even with web proxies, DLP, and other security controls, OIGs must exercise defense when
deciding to allow users to access social media or new media services. Most agencies are
required to adhere to the Federal Desktop Core Configuration or the U.S. Government
Configuration Baseline when purchasing desktops, laptops, and servers. These configurations
harden and strengthen the overall security posture of workstations that may access new media
or social media services. Consider using the concept of “least privilege” for user accounts when
determining the depth and breadth of workstation-hardening activities. An example of “least
privilege” could be ensuring that all workstations and end-user devices use “restricted” or
“limited” accounts by default. These accounts allow the common commands that a standard
user needs to work while restricting the use of commands that could damage a system. Only
users such as helpdesk and system administrators would be issued accounts that could harm
the system if used incorrectly, such as with “administrative” or “root” level accounts.

Security Operations Centers and Continuous Monitoring

DLP, web proxies, and other technologies are limited by the reaction time of an OIG to a
malicious attack or event. When deciding to allow access to social media or new media
websites, the OIG should consider if a security operations center should be employed, or if
already employed, if additional tuning of the security operations center's functions will be
required. In the event that a center is not employed, the OIG should evaluate its continuous
monitoring program for its general support system and ensure that it is providing reporting in
as near real-time as possible to the organization’s risk management function.




                                                 77

                       OFFICE OF INSPECTOR GENERAL

                              Department of Homeland Security

                               Washington, DC 20528 / www.oig.dhs.gov


Appendix F
Major Contributors to This Report
The CIGIE New Media Working Group

The CIGIE New Media Working Group consisted of representatives of the following Offices of
the Inspectors General:

•   Department of Agriculture
•   Department of Defense
•   Department of Health and Human Services
•   Department of Homeland Security
•   Department of Housing and Urban Development
•   Department of the Interior
•   Environmental Protection Agency
•   Legal Services Corporation
•   National Science Foundation
•   Pension Benefit Guaranty Corporation
•   Social Security Administration
•   Treasury Inspector General for Tax Administration
•   United States Postal Service




                                                78

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
